<html>
<title> - BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES (BATFE): GUN SHOW ENFORCEMENT (PART I AND II)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES (BATFE): GUN SHOW 
                              ENFORCEMENT
                            (PART I AND II)

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                   FEBRUARY 15 AND FEBRUARY 28, 2006

                               __________

                           Serial No. 109-123

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-053                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             HEARING DATES

                                                                   Page
Wednesday, February 15, 2006<greek-l>first date deg.
  Part I.........................................................     1

Tuesday, February 28, 2006<greek-l>second date deg.
  Part II........................................................    31

                           OPENING STATEMENT
               February 15, 2006<greek-l>first date deg.

The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

               February 28, 2006<greek-l>second date deg.

The Honorable Tom Feeney, a Representative in Congress from the 
  State of Florida, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    31
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    32

                               WITNESSES
               February 15, 2006<greek-l>first date deg.

Ms. Annette Gelles, Owner, Showmasters Gun Shows
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mr. James Lalime, Gun Salesman, Colonial Heights, VA
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Mr. John White, Owner, The GunSmith
  Oral Testimony.................................................    13
  Prepared Statement.............................................    14
Mr. Suzanne McComas, Licensed Private Investigator, New York, NY
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18

               February 28, 2006<greek-l>second date deg.

Mr. Michael R. Bouchard, Assistant Director Field Operations, 
  Bureau of Alcohol, Tobacco, Firearms and Explosives (BATFE)
  Oral Testimony.................................................    34
  Prepared Statement.............................................    37
Lt. Col. D.A. Middleton, Deputy Chief of Police, Henrico County 
  Police Department
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52
Major David McCoy, City of Richmond Police Department
  Oral Testimony.................................................    55
  Prepared Statement.............................................    55

                                APPENDIX
                   Material Submitted for the Record
               February 15, 2006<greek-l>first date deg.

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    76
Letter from the Bureau of Alcohol, Tobacco, Firearms, and 
  Explosives (BATFE) regarding possible Title 18 U.S.C. 
  violations.....................................................    78
Richmond Gun Show list...........................................    79
Memorandum to Lieutenant Colonel Robert B. Northern from Captain 
  Robert G. Kemmler, regarding Gun Show Activity on August 22, 
  2005...........................................................    80
Residence Check Sheet used by the Bureau of Alcohol, Tobacco, 
  Firearms, and Explosives (BATFE)...............................    83
Affidavit from Randy Clark, Boutetourt County, VA................    84
Affidavit from Warren Bruce Jones, Henrico County, VA............    86
Affidavit from Ikaya C. Parker, Chesterfield County, VA..........    87
Post-hearing questions to Annette Gelles, Owner, Showmasters Gun 
  Shows, from the Honorable Sheila Jackson Lee, a Representative 
  in Congress from the State of Texas............................    88

               February 28, 2006<greek-l>second date deg.

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    89
Response to post-hearing questions from Michael Bouchard, 
  Assistant Director, Field Operations, Bureau of Alcohol, 
  Tobacco, Firearms and Explosives (BATFE).......................    90


 BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES (BATFE): GUN SHOW 
                              ENFORCEMENT
                                (Part I)

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:04 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. If our witnesses could please take their 
positions at the witness table.
    Good afternoon, ladies and gentlemen. This is a bit 
irregular procedurally. So we'll all know where we are, Mr. 
Scott and I had planned to mark up our Second Chance bill, but 
there is not a working quorum nor a reporting quorum here. In 
the event that the requisite number does appear, we will 
suspend hearings very briefly on this matter, and then we will 
mark up the Second Chance--well, we've got a working quorum. We 
don't have a reporting quorum.
    We don't have a reporting quorum yet, so we will suspend 
hearing on this, and then mark up our Second Chance, and then 
resume this.
    Now, for the information of everybody here, there are votes 
scheduled at 5:30. If we are not able to complete this hearing 
at the 5:30--when the 5:30 bell rings, we will go vote and 
return and complete the business, hopefully before too late.
    Today, ladies and gentlemen, on Crime, Terrorism, and 
Homeland Security, we convene a first in a series of oversight 
hearings on the enforcement operations of the Bureau of 
Alcohol, Tobacco, Firearms--popularly known as ``ATF''--and 
Explosives at gun shows. Today's hearing will focus on ATF's 
operation in the Richmond, VA, area between May of 2004 and 
August of 2005. Testimony from today's hearing will detail 
allegations that these operations may have overstepped ATF's 
core mission.
    Now, I want to make it clear, we're not here to hang 
anybody today, but in all candor, as I have read some of these 
allegations, it does appear that maybe the ATF activity may 
have risen to the threshold of being heavy-handed. Don't know 
that for a fact. We will hear from them subsequently after the 
President's work period is--President's Day work period is 
concluded.
    The operations in question covered eight gun shows and were 
conducted in conjunction with the Virginia State Police, the 
Henrico County Police Department, and the Richmond Police 
Department. According to the Virginia State Police, these 
operations were intended to reduce the number of firearms being 
purchased and transferred to prohibited persons who may have 
been involved in criminal and/or gang-related activities.
    While we support these efforts, ATF reports that 206 
participants were stopped and interviewed while it confiscated 
firearms from another 50 participants. Although most of the 
firearms were ultimately returned, the purchasers were notified 
via official letter from ATF that a person may have knowingly 
made a false statement to a firearms dealer, a crime which is 
punishable by imprisonment for up to 5 years, and were ordered 
to appear at a local ATF office to discuss their transactions. 
In addition, the letter explained that failure to appear could 
result in a Federal arrest warrant being issued for the alleged 
charges.
    A copy of this letter is on display in the hearing room and 
will be made a part of the record.
    In addition to stop-and-seizure operations, ATF also 
implemented full-scale residency checks. Although ordinary 
residency checks simply require a driver's license and another 
form of matching identification, residency checks for these 
shows, it appears, were much more extensive. Full-scale 
residency checks required uniformed law enforcement to visit 
the address of every purchaser from Richmond or Henrico County 
attempting to purchase a gun and ask for a full description of 
the individual attempting to purchase the firearm, where he or 
she worked, how many firearms the potential purchaser owned, 
and in some instances, if there were any concerns about the 
person in question purchasing a firearm. If no one was at the 
listed address, a neighbor was interviewed.
    In order to conduct full-scale residency checks, 49 offices 
and agents were assigned to one show alone, which may 
constitute an excessive law enforcement presence. These 
operations netted 10 firearm violation convictions, six other 
pending charges, and an additional 16 convictions for other 
criminal violations.
    Today's witnesses will testify with firsthand and expert 
experience about the impact of the ATF's operation so that we 
may evaluate their efficiency and effectiveness. Today's 
hearing, I repeat, folks, is not an indictment of the ATF, and 
we support the ATF's efforts to keep illegal guns off the 
streets and out of the hands of criminals.
    In addition, the hearings are not an attempt to impugn or 
diminish the reputation or dedication of the ATF nor its 
agents. These allegations, however, are very serious and merit 
the scrutiny of this Subcommittee.
    I look forward to hearing our witnesses' testimony and hope 
that it can shed some light on the allegations we have heard 
concerning ATF's gun show operations in Richmond. For many law-
abiding gun purchasers, this was, I am told, not a pleasant 
experience, impacting friends, families, and in some cases, 
professional reputations.
    Now, I notice, before I recognize my good friend from 
Virginia, the Ranking Member, that we do have a reporting 
quorum. Do we not, Mr. Parliamentarian? So let us suspend 
momentarily, and then we will mark up the Second Chance bill.
    [Whereupon, at 4:12 p.m., the Subcommittee proceeded to 
other business and reconvened the hearing at 4:14 p.m.]
    Mr. Coble. I am now pleased to recognize the Ranking 
Member, the gentleman from Virginia, Mr. Bobby Scott, for his 
opening statement.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, I want to express my appreciation to you for 
holding this hearing, due, at least in part, I believe, to my 
request that you do so. I was contacted by a constituent who 
expressed his concern about media and other reports of 
excessive and abusive investigative tactics by the ATF and 
other law enforcement agencies during a gun show held near 
Richmond, VA. He asked that I look into the matter because I 
was a Member of the Judiciary Committee which had oversight 
responsibilities of ATF and other federally funded activities 
of law enforcement officials involved, and we requested this 
hearing.
    As we are likely to hear from witnesses today, there are 
serious allegations about abusive practices, including racial 
profiling, coercive interrogation tactics, actions tantamount 
to arrest without probable cause, failure to apprise rights 
against self-incrimination, and more. Clearly, the ATF form 
letter that has been displayed raises serious questions about 
the agency's enforcement tactics in cases connected with the 
Richmond Gun Show and other enforcement actions in which it was 
used.
    And, Mr. Chairman, has this letter been entered into the 
record? It has? Okay.
    Mr. Chairman, this issue is not about gun control. You and 
I have different views about that issue, but there are serious 
allegations about the right of law-abiding citizens exercising 
their rights. Some obviously want to change the law, and with 
gun shows I think a lot can be done. But until the law is 
changed, the law is the law. And so we have to look at these 
allegations as they affect law-abiding citizens.
    Reports indicate that there was a large number of law 
enforcement officials--some accounts suggesting there may have 
been as many as 450, others suggesting 50 to 70--devoted to an 
effort to address illegal straw purchases of guns. Preliminary 
reports indicate that 13 arrests related to straw purchase 
allegations. It is not clear exactly how many have been 
convicted or what happened with those arrests, but there is a 
way to have a sting operation that's legal. This dragnet, 
apparent dragnet effort is not the way it ought to be done.
    My interest is to investigate this matter to determine 
whether or not there's evidence of abusive investigatory or 
other enforcement tactics, and if so, to work with ATF and 
other agencies involved to see how the practices can be stopped 
and that proper procedures can be implemented to prevent 
occurrences in the future.
    We know how to run sting operations legally. You have to 
show probable cause, and it can be done. But you ought not just 
stop people without probable cause and without an indication of 
guilt.
    If, on the other hand, there are no problems, I will be 
pleased to see that the actions of the ATF and other agencies 
have been vindicated and that the allegations turned out not to 
be true. However, from media reports and the concerns expressed 
by persons attending or hearing about the Richmond Gun Show 
enforcement activities, even if the actions are found not to be 
improper, we certainly have a problem with appearances that 
need to be worked on relative to how ATF and other law 
enforcement officials carry out their responsibilities.
    So, Mr. Chairman, I look forward to the testimony of our 
witnesses and working with you and the ATF on addressing the 
problem on how to avoid the appearances of impropriety and how 
to enforce the laws that need to be enforced in a way that's 
consistent with our Constitution.
    Mr. Coble. I thank the gentleman from Virginia, and I say 
to each of the Members, I appreciate you all being here, and 
all Members' opening statements will be made a part of the 
record.
    Permit me to revert to the markup momentarily. I think I 
failed to note that there was, in fact, the presence of a 
reporting quorum. There were at least 10 Members here at the 
time we did that.
    It's the practice of the Subcommittee to swear in all 
witnesses appearing before it, so if you witnesses would please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative, and you may be seated.
    In addition to the witnesses, we also welcome those in the 
audience indicating, obviously, your interest in this matter.
    We have four distinguished witnesses with us today. Our 
first witness is Ms. Annette--is it pronounced ``jealous''? 
Gelles, hard ``G''--Annette Gelles, owner of Showmasters Gun 
Shows, a family-operated business. Ms. Gelles has successfully 
managed the company for the past 10 years, averaging 
approximately 15 shows per year. Ms. Gelles has a reputation 
for running a reputable business for the legal sale of firearms 
as well as educational, historic, and rare related items. She 
was the operator of the Richmond Gun Show under consideration 
today at this hearing. Ms. Gelles received her Bachelor of 
Science in biology from the University of Pittsburgh at 
Johnstown.
    Our second witness today is Mr. James Lalime--is that the 
correct pronunciation, Mr. Lalime?--a gun salesman from 
Colonial Heights, VA. Mr. Lalime has been working for a gun 
dealer for the past year. He is a frequent attendee of gun 
shows and was present at last year's Richmond Gun Show, when he 
was questioned by ATF agents and a Virginia State trooper.
    Our third witness is Mr. John White, who is the owner of 
The GunSmith in Lyndhurst, VA. He also participated in the 
Richmond Gun Show being examined by today's hearing. Mr. White 
is a retired law enforcement officer with nearly 30 years of 
service in the Commonwealth of Virginia. He served as a 
sergeant with the Albemarle County Police Department, Patrol 
and Investigations Division. Previously, he served on the 
Federal Organized Crime and Drug Enforcement Task Force as a 
Special Deputy U.S. Marshal. Mr. White received his law 
enforcement certification in 1980 from the Central Shenandoah 
Criminal Justice Training Center.
    Our final witness today is Ms. Suzanne McComas, a licensed 
private investigator. Previously, she worked as an on-air 
consultant for Fox News, Court TV, and MTV. Additionally, Ms. 
McComas worked as a cold case homicide investigator for 
``America's Most Wanted.''
    Now, I noticed--is Mr. Forbes--I think he was here. Mr. 
Scott, I say to you there is a bevy of Virginia citizens in the 
hearing room today, so you need to be on your best behavior. I 
don't know whether in your district or not.
    Mr. Scott. That's hard to do, Mr. Chairman.
    Mr. Coble. But it's good to have you all here, folks. Let 
me reiterate what I said earlier. There is with certainty a 
vote that will come down at 5:30. If you all could comply with 
the red light that appears before you, when that red light 
appears, the ice on which you are skating is thin. That means 
your 5 minutes have expired. There will be an amber light that 
will appear, illuminate, telling you you have 1 minute to wrap 
up. So if you all could comply with that, we would be 
appreciative.
    And, Ms. Gelles, we will start with you. If you will 
activate your mike, yes, and pull it closer to you.

              TESTIMONY OF ANNETTE GELLES, OWNER, 
                     SHOWMASTERS GUN SHOWS

    Ms. Gelles. All right. Mr. Chairman, my name is Annette 
Gelles of Showmaster Gun Shows. I would like to provide a brief 
statement concerning the events surrounding the Richmond Gun 
Show August 13-14, 2005, at the Richmond International Raceway.
    By way of background, I have been the sole manager and 
proprietor of Showmasters for 10 years. Showmasters is a 
family-owned business that began as Old Dominion Shows in 1971. 
My father and mother began the Roanoke Valley Gun Show and Old 
Dominion Gun Collectors Society 34 years ago. Over the years, 
we have produced thousands of shows in Virginia, West Virginia, 
and Maryland.
    We are a family-oriented business with a conservative 
customer base. We allow no profanity, pornography, explosive or 
smoke devices so that the show is appropriate for families with 
children. Many of the exhibitors are retired or active-duty 
military or law enforcement. Many are just average citizens--
hobbyists, knife collectors, coin collectors, holster 
manufacturers, booksellers, and police suppliers.
    To ensure the public and exhibitors are safe, we check the 
guns at the door to make sure that they are inoperable, and we 
tie them. We also make all exhibitors tie their guns. We 
provide security for 24 hours.
    Mr. Coble. If you will suspend, Ms. Gelles, you say ``tied 
the guns''?
    Ms. Gelles. Yeah, we have cables that we provide, that I 
give to my security, and we check all the guns to make sure 
they're unloaded and then tie them so they don't work.
    Mr. Coble. I see. I'm with you.
    Ms. Gelles. And we make all the exhibitors do that, too.
    ATF and other law enforcement personnel have always 
attended the shows. Not in great numbers like in the August 
show, but we would recognize them, one or two walking through 
as customers, and sometimes, I'm sure, as investigators on 
official business. They are usually friendly, professional, and 
not aggressive toward the public or exhibitors.
    However, at the Richmond Gun Show on August 13 and 14, 
2005, at least 45 law enforcement officers including ATF, 
Virginia State Police, Henrico County Police, and Richmond City 
Police were assigned to the show. These officers were acting 
under ATF's direction and were present in the building on 
Saturday, August 13, 2005. According to Brian Swann, the Acting 
Resident Agent in Charge with the ATF Richmond area office at 
the time, and Donna Tate, who's the Virginia State Police in 
charge of the gun show's background checks, this was an ATF/
Virginia State Police Task Force. I was told by two uniformed 
Henrico County Police officers that there were at least 14 
other Henrico County Police that were present on Saturday in 
plain clothes.
    This enormous law enforcement presence was reflected 
throughout the weekend. Sixty-six marked and unmarked law 
enforcement vehicles were on the lot at 10 a.m. on Sunday 
morning. The numbers of Henrico County Police at the main 
entrance before the fence fluctuated all day, but on average 
there were two or three vehicles at all times. Four hundred 
Henrico County Police and Richmond City Police were assigned 
``in the field'' to assist at the show. I was told that there 
were a total of 475 Henrico County and Richmond City Police 
officers.
    Mr. Chairman, you might ask the purpose for this operation. 
Was it explained to me as the show promoter? It was not. 
Instead, here is what I observed: People were approached and 
discouraged from purchasing guns. Before attempting to 
purchase, they were interrogated and accused of being in the 
business without a license, detained in police vehicles, and 
gun buyer's homes were visited by police, and much more.
    An example of what happened is as follows: One individual 
was simply pulled aside from the table in the middle of a 
purchase--he actually was standing at the table doing the 
paperwork, and an ATF agent came up to him and said, ``What do 
you want to buy that gun for?'' And then the gentleman tried to 
ignore him, and the agent said, ``You need to step over here.'' 
And he said, you know, ``I'm an ATF agent. You need to step 
away from the table. What do you want to buy that gun for? You 
have no business with that gun.''
    All weekend long people were interrogated in a similar 
manner at the table in the concession area just outside the ATF 
Command Post exit door.
    Every person who tried to buy a gun at the gun show had a 
residency check done, according to Special Agent Swann. The 
residency check consisted of having a marked police vehicle 
sent to the purchaser's home to check if the person trying to 
buy a gun actually lived where their identification indicated, 
usually a Virginia driver's license and/or another form of 
identification with a matching address. At this point, the 
purchaser had not yet been run through the background check 
and, therefore, there was no evidence--there was no evidence 
present that would indicate the identification presented was 
correct or incorrect, and no way to ascertain if the individual 
had a criminal background check or a criminal record.
    As for any real evidence of lawbreakers at the show, here 
is what we know so far. Two persons with warrants were 
arrested--I'm sorry. Two persons with warrants for arrest were 
identified by NICS, just as they would have been if BATF had 
not been there. Normally, Virginia State Police are assigned to 
the show and they'll arrest the individuals. This time, only 
one got arrested, and the other one left because of the delay 
of the residency check.
    Mr. Coble. Now, your time has expired. If you could wrap 
up, Ms. Gelles.
    Ms. Gelles. All right. What was achieved at the show was it 
devastated my public attendance. Normally I'll have 4,000 
people; 2,000 people came, which cost me about 14,000 that 
show. The next show, again, I only had about--I had less than 
2,000--1,800 at that show and it cost me another 14,000. And we 
believe it's because of all the publicity of this event.
    So it's had a great impact on me. It also had a large 
impact on our exhibitors, at least 300,000, because people 
didn't want to bring in guns, and people didn't want to come in 
with all the police in the parking lot. And basically what I 
would like to know is what's--how is it going to be prevented 
again.
    Thank you.
    [The prepared statement of Ms. Gelles follows:]

                  Prepared Statement of Annette Gelles

    Mr. Chairman my name is Annette Gelles of Showmasters Gun Shows. I 
would like to provide a brief statement concerning the events 
surrounding the Richmond Gun Show held on August 13-14, 2005 at the 
Richmond International Raceway.
    By way of background, I have been the sole manager and proprietor 
of Showmasters for 10 years. Showmasters is a family owned business 
that began as Old Dominion Shows in 1971. My father and mother began 
the Roanoke Valley Gun Show and Old Dominion Gun Collectors Society 34 
years ago. Over the years, we have produced thousands of shows in 
Virginia, West Virginia, and Maryland.
    We are a family oriented business with a conservative customer 
base. We allow no profanity, pornography, explosive or smoke devices so 
that the show is appropriate for families with children. Many of the 
exhibitors are retired or active duty military or law enforcement 
personnel. Many are just average citizens--hobbyists, knife collectors, 
coin collectors, holster manufacturers, booksellers, and those offering 
police supplies and accessories.
    To ensure the public and exhibitors are safe we check guns at the 
door to make sure none are loaded and the guns are tied so they are 
inoperative as they enter the show. We also have exhibitors tie their 
guns so they are inoperative. We provide security during public hours 
and through the night.
    ATF and other law enforcement personnel have always attended the 
shows. Not in great numbers like the August, show but we would 
recognize one or two walking through the shows, usually as customers, 
but I am sure sometimes conducting official business. They are usually 
friendly, professional, and not aggressive towards the public or 
exhibitors.
    However, at the Richmond Gun Show on August 13-14, 2005, at least 
45 law enforcement officers including ATF, Virginia State Police, 
Henrico County Police and Richmond City Police were assigned to the 
Show. These officers were acting under ATF's direction and were present 
in the building on Saturday August 13, 2005. According to Brian Swann, 
Acting Resident Agent in Charge (A/RAC) with the ATF Richmond area 
office at the time, and Donna Tate, Virginia State Police (VSP) this 
was an ATF/Virginia State Police Task Force. I was told by two 
uniformed Henrico County police officers that at least fourteen Henrico 
County Police were present on Saturday in plain clothes.
    This enormous law enforcement presence was reflected throughout the 
weekend. 66 marked and unmarked law enforcement vehicles were on the 
lot at 10:00 AM on Sunday morning. The numbers of Henrico County Police 
at the main entrance before the fence fluctuated all day, but on 
average there were two to three vehicles at all times. 400 Henrico 
County Police and Richmond City Police were assigned ``in the field'' 
to assist officers at the show. I understand that there are a total of 
475 Henrico County and Richmond City officers. Mr. Chairman, you might 
ask if the purpose for this operation was explained to me as the show 
promoter. It was not. Instead, here is what I observed. People were 
approached and discouraged from purchasing guns, before attempting to 
purchase they were interrogated and accused of being in the gun 
business without a license, detained in police vehicles, and gun 
buyer's homes visited by police and much more.
    An example of what happened is as follows: One individual was 
simply pulled aside from a table in the middle of a purchase and asked 
by an ATF agent, ``What do you want to buy that gun for?'' All weekend 
long people were interrogated in a similar manner at a table in the 
concession area just outside the ATF Command Post exit door.
    Every person who tried to buy a gun at the show had a residency 
check done, according to Special Agent Swann. The residency check 
consisted of having a marked police vehicle sent to the purchaser's 
home to check if the person trying to buy a gun actually lived where 
their identification indicated (usually a Virginia Drivers License and 
one other form of identification with a matching address). At this 
point, the purchaser had not yet been run through the background check 
and therefore no evidence was present that would indicate the 
identification presented was incorrect and there was also no way to 
ascertain if the individual had a criminal record.
    As for any real evidence of lawbreakers at the show, here is what 
we know so far. Two persons with warrants for arrest were identified 
using NICS, just as they would have been if BATFE had not been there. 
Normally, the Virginia State Police that are assigned to the show 
arrest these individuals. One was arrested and one left the building 
before he could be arrested because of the delay created by the ATF's 
residency check procedure. We have filed a FOIA request with ATF for 
more information, but they have yet to release anything substantive to 
us.
    What ATF did achieve was to devastate attendance at the show. 
Average public attendance is 4,000 persons at the Richmond Gun Show at 
Richmond International Raceway. I had less than 2,000 in public 
attendance during August 13-14, 2005. We charge $7.00 for admission and 
that means we lost about $14,000 in admission charges. The November 
show also had less than 2,000 in public attendance, we strongly believe 
due to the fears of law-abiding citizens being unnecessarily monitored 
by their government. The November show usually has 4,500 to 5,000 in 
public attendance.
    The impact on exhibitors was much greater. It is difficult to put a 
dollar amount on the losses experienced by exhibitors because some 
sales are as much as $70,000 for one gun or $500 for another. However, 
we estimate their losses well above $300,000. The good will that 
exhibitors had established with the community as a safe and responsible 
way for citizens to sell their guns was destroyed that weekend by the 
overt police and undercover law enforcement presence. Many exhibitors 
told me that if this were to happen again that they would not be back.
    The ATF / Virginia State Police operation was methodical, 
systematic, prolonged, and vast. Scrutiny should be placed on why these 
officers were sent out in imposing numbers to do an operation that was 
of questionable legality, and certainly offensive to our constitutional 
freedoms. I want to say that well prior to this chain of events, I 
personally met with the Special Agent in Charge of the Washington Field 
Division, and offered, along with my colleague, Steve Elliott of C&E 
Shows, to work with ATF in a mutually respectful and professional way. 
To ATF's credit, they followed up on some of our positive suggestions. 
We believed that we were on the right track to an appropriate and 
harmonious relationship with the Bureau. I would still like that 
relationship Mr. Chairman. I am not interested in interfering with 
their lawful enforcement duties. I respect and honor the sacrifices 
that many law enforcement officers make on a daily basis for our 
citizens. However, I found that growing up in a relatively small 
community that the law enforcement officers that were most honored and 
highly regarded are those who respect and honor the privacy, 
constitutional, and property rights of the citizens they are serving. 
ATF needs to account for what happened, explain to this committee why 
it will not be repeated, and commit itself to working with the trade 
for the mutually shared goal of safer communities.

    Mr. Coble. Thank you, Ms. Gelles. And, incidentally, folks, 
when we're cutting you off at the red light, we have examined 
your written statements. We're thoroughly familiar with them. 
They will be re-examined. So don't think we're shucking you 
aside.
    Mr. Lalime?

           TESTIMONY OF JAMES LALIME, GUN SALESMAN, 
                      COLONIAL HEIGHTS, VA

    Mr. Lalime. Yes, sir, thank you. Good afternoon, Mr. 
Chairman and Members of the Subcommittee. My name is James 
Lalime, and I live in Colonial Heights, VA. It is a great honor 
for me to be here today at this oversight hearing on the gun 
show enforcement. I am currently employed by a Virginia gun 
dealer as a salesman and was present at the Richmond Gun Show 
August 13 through 14, 2005. As an avid gun enthusiast and 
shooter, I usually attend as many gun shows as I possibly can. 
I decided to attend the Richmond Gun Show to see if I could 
sell a couple of firearms and some parts that I had. Had I 
known what was going to transpire, I would not have attended 
the show.
    I had been at the gun show for a few hours after selling 
one antique rifle, one handgun, and a rifle stock. I was 
looking over some rifle parts at one of the tables when I was 
approached by a man who claimed he was an ATF agent, who I 
later found out was Agent Jerad McComas, and a Virginia State 
trooper, who was Trooper Ingram. At no time did Agent McComas 
show me any identification. Agent McComas said he wished to 
talk to me and stated that I wasn't being charged with anything 
and that he didn't want to make a scene. Myself, Agent McComas, 
and Trooper Ingram proceeded to walk over to a side by the 
entrance in the building where the show was being held. Agent 
McComas again stated I was not being charged with anything, but 
began interrogating me.
    The first question Agent McComas asked me was, ``We see you 
at a lot of gun shows. Are you in the business of buying and 
selling firearms?'' To which I answered, ``No, sir. These are 
my personal firearms.'' Again Agent McComas said, ``Well, we 
see you at every gun show. Are you sure you're not buying and 
selling guns as a business?'' Again I told him that these were 
out of my personal collection. To which Agent McComas replied, 
``Well, because we see you at all the gun shows, we think you 
are, and you should get a business license to do so. It is not 
that hard.''
    When I tried to explain to Agent McComas the reason they 
see me at all the gun shows might be because I work for an FFL 
dealer and work at those shows, Agent McComas replied, ``Are 
you walking around at gun shows buying and selling guns for the 
dealer you work for?'' I told him no, that I was there for 
myself and that I had some guns I didn't shoot and wanted to 
sell.
    Again, Agent McComas insisted that they saw me at ``all the 
gun shows,'' and again I told him that I worked for an FFL 
dealer at gun shows and maybe that's why they see me at every 
show. Agent McComas again asked if I was working for the FFL 
dealer, and again I told him I was there for myself. This type 
of round and round and pointless questioning went on for about 
another 15 to 20 minutes. At some point I cut off Agent McComas 
and asked Trooper Ingram what he needed me for. He told me that 
my driver's license had been suspended and that he needed to 
issue me a notification of suspension.
    Trooper Ingram, Agent McComas, and myself went to my car so 
I could put a firearm I was carrying into its case, then went 
with Trooper Ingram to his patrol car. I sat in the front seat 
of the patrol car as Trooper Ingram wrote up the notification. 
As he was writing the notification, I asked him what my license 
had been suspended for. He told me it came up on the computer 
as a non-traffic suspension and couldn't give me anymore 
information. This took approximately 30 to 40 minutes. During 
this time Agent McComas was continuing his line of 
interrogation, asking me how many guns I owned, when was the 
last time I purchased a gun, et cetera, et cetera, et cetera. 
It had gotten to the point where Trooper Ingram asked Agent 
McComas if he would stop so that he could finish.
    Trooper Ingram was then able to answer all of my questions 
as best he could, and then told me it was okay to get out of 
the patrol car. As I was stepping out of the patrol car, Agent 
McComas immediately continued with his interrogation, with the 
same line of questioning as before, over and over. As soon as I 
received notification for the suspension form--from Trooper 
Ingram, I told Agent McComas if I wasn't being charged with 
anything then I must be free to go. I later learned that the 
suspension of my driver's license was due to an error.
    When I got over the initial shock of what had just 
happened, I went to--I had spoken with Ms. Gelles, and then I 
went to speak with Mr. Brian Swann, who was the lead agent. 
When I asked him if I could speak with Agent McComas, I was 
quite rudely asked, ``What for?'' When I told him that I was 
considering seeking legal counsel, he responded in a very loud 
tone, ``What for? We see you at all the gun shows.'' I told him 
that I thought my rights had been violated and that I might 
seek legal action.
    I had been waiting approximately 10 minutes when both Agent 
McComas and Agent Swann walked up to me. I asked Agent McComas 
for his badge number, to which he responded, ``We don't have 
badges.'' I then asked for contact information from him at the 
ATF and told him that I may be seeking legal counsel. After 
some talking between Agent McComas and Agent Swann, they agreed 
to write down some contact information for themselves. It was 
about this time that I noticed the shirt Agent McComas was 
wearing had profanity emblazoned across the back and asked if 
it was customary for ATF agents to wear profanity while in 
public where women and children could see it, to which Agent 
McComas replied, ``It is customary for the ATF to wear anything 
they want to when they are undercover.'' I told him that I was 
offended and was sure that there were others who attended the 
show who were offended also.
    I found this whole incident to be disheartening and rather 
humiliating. Never in my life have I been made to feel so 
violated, and this is not a feeling that I will soon forget. I 
am a law-abiding citizen that has gone through background 
checks that were approved to be able to work on military 
installations, a background check that was approved for a 
Concealed Carry Weapons permit in the State of Virginia, a 
background check that was approved by the ATF itself to be able 
to sell firearms for an FFL in the State of Virginia. I am as 
far from the criminal element as a person can be, and yet I was 
singled out for harassment by ATF Agent McComas and ATF Agent 
Swann, who was the lead agent.
    Mr. Coble. If you could wrap up, Mr. Lalime.
    Mr. Lalime. I feel that these two agents went far beyond 
the limitations of their jobs and that they should be under 
investigation.
    [The prepared statement of Mr. Lalime follows:]

                   Prepared Statement of James Lalime

    Good afternoon, Mr. Chairman and Members of the Subcommittee. My 
name is James Lalime of Colonial Heights, Virginia. It is a great honor 
for me to be here today at this oversight hearing on the Gun Show 
Enforcement. I am currently employed by a National gun dealer as a 
salesman and was present at the Richmond Gun Show August 13 thru the 
14th, 2005. As an avid gun enthusiast and shooter, I usually attend as 
many gun shows as I possibly can. I decided to attend the Richmond gun 
show to see if I could sell a couple of firearms and parts. Had I known 
what was going to transpire, I would not have attended the show.
    I had been at the gun show for a few hours after selling one 
antique rifle, a handgun, and a rifle stock. I was looking over some 
rifle parts at one of the tables, when I was approached by a man who 
claimed he was an ATF agent, who I later found out was agent Jerad 
McComas, and a Virginia State Trooper Ingram. At no time did agent 
McComas show me an identification. Agent McComas said he wished to talk 
to me and stated that I wasn't being charged with anything, and that he 
didn't want to make a scene. We, agent McComas, Trooper Ingram, and 
myself proceeded to walk over to a side by the entrance in the building 
where the show was being held. Agent McComas again stated that I
was not being charged with anything, but began interrogating me.
    The first question agent McComas asked me was, ``We see you at a 
lot of gun shows, are you in the business of buying and selling 
firearms?'' To which I answered, ``No sir, these are my personal 
firearms.'' Again agent McComas said, ``well we see you at every 
gunshow, are you sure you're not buying and selling guns as a 
business?'' And again I told him that these were out of my personal 
collection. To which agent McComas replied, ``Well, because we see you 
at all the gunshows we think you are, and you should get a business 
license to do so, it's not that hard!'' When I tried to explain to 
agent McComas the reason they see me at all the shows, might be because 
I work for a FFL dealer and work at those shows. Agent McComas replied, 
``Are you walking around at gunshows buying and selling guns for the 
dealer you work for?' I told him no, that I was there for myself, that 
I had some guns I didn't shoot and wanted to sell. Again agent McComas 
insisted that they saw me at, ``ALL the gunshows'' And again I told him 
that I worked for an FFL dealer, at gunshows and maybe that's why they 
see me at every show. Agent McComas again asked if I was there working 
for the FFL dealer, and again I told him that I was there for myself. 
This type of round, and round questioning went on for about another 15-
20 minutes. At some point, I cut off agent McComas and asked trooper 
Ingram what he needed me for. He told me that my drivers license had 
been suspended, and that he needed to issue me a notification of 
suspension.
    Trooper Ingram, agent McComas, and myself, went to my car so I 
could put a firearm I was carrying into it's case, then went with 
trooper Ingram to his patrol car. I sat in the front seat of the patrol 
car as Trooper Ingram wrote up the notification. As he was writing the 
notification, I asked him what my license had been suspended for. He 
told me it came up on the computer, as a non-traffic suspension, and 
couldn't give me any more information. This took approximately 30-40 
minutes, during this time agent McComas was continuing his line of 
interrogation. Asking me how many guns I owned, when was the last time 
I purchased a gun etc., etc., etc. It got to the point where Trooper 
Ingram asked agent McComas if he would stop for a moment so he could 
finish. Trooper Ingram was then able to answer all of my question the 
best he could, then told me it was okay to get out of the patrol car. 
As I was stepping out of the Patrol car agent McComas immediately 
continued with his interrogation, with the same line of questioning as 
before, over and over. As soon as I received the notification of 
suspension form Trooper Ingram, I told agent McComas if I wasn't being 
charged with anything then I must be free to go, and left. I later 
learned that the suspension of my drivers license, was due to a state 
employees error.
    After I got over the initial shock of all that had happened and had 
time to think about it, I felt my rights had been violated, and was 
rather perturbed. I spoke briefly with Annette Gelles, then decided to 
get some information about the agent who interrogated me (agent 
McComas). I walked back into the gunshow to try and find him without 
success. I found another ATF agent that I had seen at some other shows, 
and asked him where I could find someone to speak with. He pointed out 
his supervisor (agent Brian Swan), and I proceeded to walk over to him. 
When I got to where agent Swan was standing, he was talking to some 
other ATF agents, so I waited off to the side for him to finish. When 
agent Swan was done he asked if he could help me, I told agent Swan I 
wished to speak to agent McComas. I considered his response of ``What 
for!''. in a loud tone, to be quite rude. When I told agent Swan I 
wanted agent McComas' badge number, and contact information, agent Swan 
again responded in a loud tone, ``What for, we see you at ALL the 
gunshows!'' I told him that I thought my rights had been violated, and 
that I might seek legal action. I then told agent Swan that I would 
wait up at the front entrance, where agent McComas' had interrogated 
me.
    I had been waiting approximately 10 minutes when both agent 
McComas, and agent Swan walked up. I then asked agent McComas for his 
badge number, to which he responded, ``We don't have badges.'' I then 
asked for contact information from him at the ATF and told him I may be 
seeking legal counsel. After some talking between agent McComas and 
agent Swan, they agreed to write down contact information for 
themselves. It was at about this time I noticed that the shirt agent 
McComas was wearing had profanity emblazoned across the back, and asked 
if it was customary for ATF agents to wear profanity in public, where 
women and children could see it. To which agent McComas replied, ``It's 
customary for the ATF to wear anything they want to, when they are 
under-cover.'' I told him that I was offended and was sure that there 
were others who attended the show who were offended also. Agent 
McComas' sarcastic response to that was, ``Why don't you have a list!'' 
I told him I could probably get one, with signatures, in about 20 
minutes. Agent McComas then got about an inch from my face and said in 
a very threatening tone, ``You're really making a big deal out of 
nothing!'' I then said, ``No sir, I am not.'' He then got closer and 
said in an even more threatening tone, ``You're really making a big 
mess out of nothing!'' Again I replied, ``No sir, I am not.'' Agent 
McComas started to say something else, but agent Swan took agent 
McComas by the arm, and pulled him away. The last thing agent McComas 
said to me, was when I was leaving. I had received a call from my wife 
letting me know she was in the parking lot to drive my car home. As I 
was walking out, agent McComas was walking in. With a smug look on his 
face, and in a very sarcastic tone he said, ``Have a nice day.''
    I found this whole incident to be disheartening, and rather 
humiliating. Never in my life have I been made to feel so violated, and 
this is not a feeling that I'll soon forget. I am a law abiding citizen 
that has gone through background checks that were approved, to be able 
to work on military installations. A background check that was 
approved, for a Concealed Carry Weapon permit. A background check that 
was approved by the ATF itself, to be able to sell firearms for an FFL 
in the state of Virginia. I am as far from the criminal element as a 
person can be, and yet I was singled out for harassment by ATF agent 
McComas, and ATF agent Swan who was the lead agent. I feel these two 
agent went far beyond the limitations of their jobs, and should be 
under investigation.
    Thank you once again for the opportunity to testify.

    Mr. Coble. Thank you, Mr. Lalime.
    Ms. McComas, my curiosity prompts this question.
    Ms. McComas. No, no, no. [Laughter.]
    Mr. Coble. I assume that the agent is not known to you, Ms. 
McComas?
    Ms. McComas. No, sir.
    Mr. Coble. Very well. I breathe easier now.
    Ms. McComas. It's just really bad luck on my part.
    Mr. Coble. I beg your pardon?
    Ms. McComas. It's just really bad luck on my part. 
[Laughter.]
    Mr. Coble. Mr. White, you are recognized for 5 minutes.

          TESTIMONY OF JOHN WHITE, JOHN WHITE, OWNER, 
                          THE GUNSMITH

    Mr. White. Yes, sir. I'm John White. My wife and I own and 
operate the GunSmith, which is a Federal firearms licensed 
dealership. We value the ATF being available to us at the gun 
shows to quickly answer any firearms law questions that come up 
at the shows. We appreciate the ability to have access to the 
ATF at the shows and point out suspicious situations as they 
arise so these situations can immediately and appropriately be 
investigated.
    We have personally enjoyed benefits of the ATF presence at 
the gun shows because prior to the strong ATF presence, there 
was a large gang presence at the Richmond shows. We don't want 
to return to the days where the gangs felt free to mingle with 
legitimate purchasers, and we credit the ATF with bringing the 
current business atmosphere to the shows in the Richmond area.
    Early activity at the shows was entirely appropriate and 
within the law. However, it appeared that as time went on, the 
ATF joined--was joined by personnel from other law enforcement 
agencies who were outside their span of control. As resources 
were added, both financial and personnel, the mission and 
activities seemed to continually expand to try and keep 
everyone busy.
    We think it would be a mistake to remove the ATF presence 
from the gun shows, especially over this one lapse. We and most 
of the licensed dealers would much rather be able to work with 
the ATF than be forced to work around the more unreasonable 
methods. We would like to see a cooperative relationship with 
the ATF on criminal history checks and address verifications.
    What we would specifically recommend is:
    A detailed action plan for the ATF at each show and a 
clearer division of labor for outside agencies so that the ATF 
is not held accountable for the actions of officers over whom 
they have no control. This plan of action should include that 
an experienced supervising agent always be present at the show.
    There should be more scrutiny and attention given to the 
parking lots at these gun shows where many gun transactions 
take place outside of the scrutiny of the gun show and without 
any criminal history checks or address verification 
requirements.
    There should be greater scrutiny of ``private collection'' 
dealers within the show who do not have a Federal firearms 
license. These dealers are also exempt from the criminal 
background checks/verification and do no paperwork. These 
private collectors often have suspiciously large revolving 
stock for a true private collection. Any thinking criminal or 
straw purchaser is going to buy a gun in a parking lot or from 
these dealers rather than go through the paperwork.
    All the law enforcement agencies should respect the rights 
and privacy of the majority of the customers who are at the 
shows for honest purposes. Honest citizens should not be 
punished for the actions of the few. There should be greater 
attention paid to enforcing laws without abridging the rights 
of the many legitimate attendees at the gun shows.
    [The prepared statement of Mr. White follows:]

                    Prepared Statement of John White

    Dear Committee Members,
    At the Gunsmith, we are fortunate that our livelihood does not 
depend on gun sales. Our sales philosophy is not to sell at all costs 
but to provide a quality product for gun collectors, for self-
protection and for competition shooters. Typically, the cost of the 
products we sell prevents our firearms from being attractive to 
individuals intending to make illegal or illicit purchases. We also 
spend time talking with our customers about their reasons for 
purchasing a firearm to make sure that the firearm we sell will suit 
the intended purchase, ensure they understand how to safely handle 
their firearm and to offer opportunity for further customization. We 
rely on repeat business and referrals because we normally cannot 
compete on price with larger gun dealers who can buy in quantity. What 
we can offer is quality, a guarantee that what we sell works and the 
extra customer service that a trained firearms instructor and 
experienced gunsmith can offer.
    We know well the danger of firearms and that the lives we save by 
not selling for illegal purposes may be our families or our many 
friends in law enforcement agencies across the country. In 2004, our 
son was confronted by a burglar in his Richmond rental home. The 
burglar held in his hand what we think he imagined was a gun that he 
was stealing from our son's room. What he actually had was a customized 
paintball gun. Our son chased the burglar until the guidance he 
received from his many law enforcement relatives kicked in and he 
stopped and called the Richmond Police Department. Ironically, the 
first two officers to respond had been co-workers of his parents when 
they worked at the Richmond Police Department. The officers had seen 
our son's early years and were now responding to protect him as an 
adult. Preventing the illegal use of firearms and criminal activity, 
especially in the Richmond area, is always personal to The GunSmith.
    The GunSmith is owned and operated by two former police officers 
who value the participation of the ATF in preventing firearms from 
getting into the hands of criminals. We value the ATF being available 
to us at the gun shows to quickly answer any firearms law questions 
that come up at the show. We appreciate the ability to have access to 
the ATF at the shows to point out suspicious situations as they arise 
so that these situations can be immediately and appropriately 
investigated. We have personally enjoyed the benefits of the ATF 
presence at the gun shows because prior to the strong ATF presence 
there was a large gang presence at the shows in Richmond. A fellow 
dealer, with whom we work closely, had two guns stolen as his attention 
was deliberately distracted with a mock word battle between gang 
members. Our lives were also threatened by an unhappy customer who 
threatened that he was ``going to get his posse and come back for us.'' 
These open displays of gang activity have largely ceased as word has 
gotten out of the strong ATF presence at the Richmond Gun Shows. We 
applaud the efforts and intent of the ATF program at the gun shows in 
the Richmond area and would agree that they could serve as models for 
other similar programs with a few exceptions.
    Early activity at the gun shows was entirely appropriate and within 
the law, however, it appeared that as time went on, the ATF was joined 
by personnel from other law enforcement agencies who were outside their 
span of control. As more resources were added, both financial and 
personnel, the mission and activities seemed to continually expand to 
try to keep everyone busy. For example, in the early gun shows, the ATF 
would observe and interview when activity seemed suspicious. Then home 
checks were added as more local officers participated with the ATF. 
Then instead of just address verifications, our customers told us that 
the officers would interview neighbors and family members about how 
they felt about this person buying a gun.
    Computerized criminal history check wait times went from 20 minutes 
to 2-4 hours to overnight or longer. There was a clear pattern that 
checks on Richmond area gun buyers received the longer wait times while 
purchasers from out of the area were cleared much more quickly. Yes, 
sometimes sales were lost because of the long waits and even more sales 
were lost when neighbors and family members were informed of the 
buyer's intentions. Our income, fortunately, isn't dependent on gun 
sales but most of our customers know that we are involved with law 
enforcement and wanted us to explain why their legal behavior was being 
reported to their neighbors and family members creating unwanted 
attention and difficulties.
    Our customers questioned the fact that they were subjected to the 
additional scrutiny and address verification procedures only at gun 
shows when they could make the same purchase at a gun shop without the 
additional attention. This might seem reasonable if there was 
additional probable cause but it is hard to justify when we were making 
sales to Richmond Police Officers, Federal Prison Guards, US Marshals, 
military personnel home on leave, local judges, etc. who unfortunately 
seemed to share one additional characteristic, their ethnicity.
    We don't know if the ATF was ever aware of this circumstance but 
due to the backlogs created by these long waits, many dealers began 
calling in criminal history checks rather than delivering the paperwork 
to the on-site State Police personnel. Called-in checks had a much 
shorter wait time and quickly became the preferred method with many 
dealers.
    We and most of the licensed dealers would much rather be able to 
work with the ATF than be forced to work around the more unreasonable 
methods. We would like to see the cooperative relationship with the ATF 
on criminal history checks and address verifications restored because 
there is no advantage for any licensed dealer to make an illicit sale. 
Licensed dealers are subject to additional scrutiny by the ATF both at 
the shows and at their place of business. An improper sale means a loss 
of income while a licensed dealer does the mandatory ATF firearms trace 
and spends time in court testifying because of the improper use of a 
sold firearm.
    We would also like to see the inordinate attention on purchasers of 
firearms who happen to be female stopped. Times have changed and the 
world has changed. As more women have become head of households, 
entered law enforcement and the military and learned of their many 
advantages as competition shooters, more women are interested in 
firearms for the same reason as male purchasers. Unfortunately, many 
women are not very knowledgeable about firearms and The Gunsmith is 
somewhat rare at the show because we will take the time to talk to 
people and counsel them about their firearm choices whether or not they 
make a purchase from us. Not all women, however, know that we provide 
this service and rely on others to help them make the best choice and 
not get taken on price. This is no different than a woman taking a 
friend to buy a car or get car repairs on any other activity for which 
they are unsure of their expertise or believe they will be treated more 
fairly if they are there with a man. The truth is that not just women 
buy firearms for more than they are worth at a gun show. Gun shows are 
a business operation and caveat emptor applies. It seems, however, to 
be the prevailing opinion for law enforcement at the gun show that any 
woman who brings a male friend for advice or support must be making a 
straw purchase.
    This probably was happening more often when the ATF first began 
attending the gun shows but the ATF must have missed how successful 
they have been in shutting down this practice by their presence. The 
``profile'' has continued long after the problem, for the most part, 
has gone. For the Richmond Raceway Show that sparked this hearing, the 
problem was magnified by the fact that, on Sunday, there were probably 
almost as many law enforcement officers as customers at the show. If a 
woman approached a gun table, she was quickly surrounded by undercover 
officers closely observing her every move. A women was almost 
guaranteed to rate an interview if she actually purchased or attempted 
to purchase a gun at that show on Sunday.
    Our observation was that there seemed to be a large group of very 
young, relatively inexperienced and very energetic law enforcement 
officers at this show on Sunday who wanted to make a good showing for 
their supervisors. Having supervised young, enthusiastic officers, we 
know that, although their intent is good, sometimes when they have too 
many resources and too much undesignated time, they tend to create 
things to do and often deviate from action plans. Our impression that 
this was the case on this fateful August Sunday is further supported by 
the fact that, according to the information that we received, records 
and notes from their temporary office at the show were left in a 
trashcan. Experienced officers would have been far too paranoid to 
leave records behind and far more polished and discreet in their 
observation skills. It seemed that on this one day, there was plenty of 
youthful energy and enthusiasm but adult supervision at the show was 
lacking.
    That being said, we think it would be a mistake to remove the ATF 
presence from the gun shows especially over this one lapse. We do not 
want to return to the days where gangs felt free to mingle with 
legitimate purchasers and we credit the ATF with bringing the current 
business atmosphere to the shows in the Richmond area.
    What we would specifically recommend is:

        <bullet>  A detailed action plan for the ATF at each show and a 
        clearer division of labor for outside agencies so that the ATF 
        is not held accountable for the actions of officers over whom 
        they have no control. This action plan should include that an 
        experienced supervising agent is always present at the show.

        <bullet>  There should be more scrutiny and more attention 
        given to the parking lots at these gun shows where many gun 
        transactions take place outside the scrutiny of the gun show 
        and without any criminal history check or address verification 
        requirement.

        <bullet>  There should be greater scrutiny of ``private 
        collection'' dealers within the show who do not have a firearms 
        dealer license. These dealers are also exempt from the criminal 
        history or address verification requirement for their sales and 
        these ``private collection'' dealers often have suspiciously 
        large revolving stock for a true private collection. Any 
        thinking criminal or straw purchaser is going to buy a gun in 
        the parking lot or from these dealers and avoid the issue of 
        criminal history checks and address verification all together.

        <bullet>  All the law enforcement agencies should respect the 
        rights and privacy of the majority of customers who are at gun 
        shows for honest purposes. Honest citizens should not be 
        punished for the actions of the few. There should be greater 
        attention paid to enforcing the law without abridging the 
        rights of the many legitimate attendees at the gun show.

    We know that what we are suggesting are more difficult 
investigations and cases to pursue but since the ATF has been so 
successful in eliminating most of the obvious violations from the shows 
and has access to additional resources and outside agencies willing to 
help, this would be a major step forward in shutting down any illicit 
gun sales and purchases occurring at the gun shows and we would greatly 
appreciate and support their efforts. We look forward to the continuing 
presence of the ATF at the gun shows and our continued mutual support.

    Mr. Coble. I commend you, Mr. White. You finished well 
ahead of time.
    Mr. White. Thank you, sir.
    Mr. Coble. Ms. McComas, you are recognized for 5 minutes.

 TESTIMONY OF SUZANNE McCOMAS, LICENSED PRIVATE INVESTIGATOR, 
                          NEW YORK, NY

    Ms. McComas. Thank you, sir. I am Suzanne McComas, a 
private investigator licensed in New York State. I work on 
contract for the National Rifle Association----
    Mr. Coble. Is your mike on?
    Ms. McComas. Yes, sir.
    Mr. Coble. Pull it closer.
    Ms. McComas. I'm sorry. I work on contract for the National 
Rifle Association doing field investigations in cases where 
they feel there is an issue of an individual's second amendment 
rights being infringed. To date, I have done over 120 cases for 
the organization.
    The NRA sent me to Richmond, VA, in November to investigate 
the dozens of complaints they'd received from members who had 
attended, the dealers at the show, as well as the organizers of 
the August gun show at the Richmond Raceway. There were 
complaints about massive law enforcement presence, residency 
checks, and minority buyers being followed, pulled over, and 
their legally purchased guns seized without any due process.
    In the particular case of Ikaya Parker and Marcus Holland, 
Ikaya is a 27-year-old African American lady, a single mother, 
who works as a mortgage processor. She went to the gun show in 
December 2004 to buy a small handgun for personal protection. 
Marcus Holland was a 24-year-old African American young man 
who's also employed full-time and has a valid Concealed Carry 
permit from the State of Virginia. So she took him along 
because he was a knowledgeable gun owner.
    After her purchase, during which she did pass a background 
check, they left the show and were immediately being followed 
by a police car until they turned on to I-95, where they were 
pulled over by no less than four police vehicles. They were 
held on the side of the road for over an hour. The ATF agent 
told them he had enough evidence to arrest them right then and 
there for a straw purchase violation, even though both of them 
were legal gun owners.
    Both Ikaya and Marcus had their guns confiscated and were 
ordered to appear at the ATF office in Richmond the next day.
    On Monday, they were there for over an hour of 
interrogation. They were never read their rights at any point. 
And they were finally let go and their weapons returned when 
the agent decided he could not pursue the case.
    Ikaya was humiliated and absolutely terrified by what she 
was accused of, as it could cost her her career in the 
financial industry and financial stability for she and her 
daughter.
    I also found four other minority individuals who had 
similar experiences but, quite frankly, out of fear of 
retaliation, they cannot bring themselves to go public to this 
body or anyone else about their treatment by the ATF. No amount 
of coaxing is going to bring them public.
    Just off my written statement, I'd also like to say that 
they initially did have arrests at the shows that they went to 
early on, and any good law enforcement officer would know, just 
as the traffic cop doesn't set up the speed trap at the same 
place on the same road at the same time day after day, all the 
speeders know where it is. You need to move your trap. And 
instead of that, they just stayed in the same place. They had 
no arrests, no convictions that I'm aware of. Even though we've 
asked them to produce their conviction rates, we have yet to 
see evidence of a single conviction from any of the arrests at 
these shows. Instead, they impacted financially on the 
organizers. They terrified people. They went to their neighbors 
and asked them if they knew their next-door neighbor was at the 
gun show buying a gun. They held up the NICS system in doing 
background checks, which is a clear violation of the FBI 
guidelines. They are not to cross over into DOJ work at all.
    That didn't seem to deter them whatsoever, and I don't 
think they would have stopped to this day if somebody hadn't 
complained to Mr. Scott's office.
    During my investigations, we did check gun shows across the 
country, and we found that in Pittsburgh the Firearms Task 
Force there that's also implemented by the ATF, instead of 
doing residency checks immediately, they're collecting the 4473 
with the purchaser's address on it, and they go knock at the 
door about a week later and ask you to produce the gun that you 
bought. There's absolutely no process involved, there's no 
reason for them to do it. If you cannot produce the gun, they 
ask you for the sale paperwork. If you refuse to produce the 
paperwork, they put you under arrest for straw purchase.
    When I asked them what their criteria--I'm sorry. And when 
I asked them what their criteria was for the people that they 
collected the 4473s on at the Pittsburgh show, the answer I got 
back was, ``If it walks like a duck and quacks like a duck, 
it's a duck. That's all we need.'' Translation: ``Under 30 and 
Black.'' Period. That's all they're looking for. Anyone that 
meets that criteria, they're doing a follow-up on them. There's 
absolutely no other rhyme or reason in place for what they're 
doing.
    Thank you.
    [The prepared statement of Ms. McComas follows:]

                 Prepared Statement of Suzanne McComas

    I am Suzanne McComas, a private investigator licensed from New York 
State. I work on contract for the National Rifle Association (NRA) 
doing field investigations in cases where there is an issue of an 
individuals 2nd Amendment rights being infringed, or someone has been 
charged with a firearms violation. To date I have done over 120 cases 
for the organization.
    The NRA sent me to Richmond, Virginia to investigate the dozens of 
complaints they received from members who attended, the dealers at the 
show, as well as the organizers of the August gun show at the Richmond 
Raceway. Complaints about massive law enforcement presence, residence 
checks, and minority buyers being followed, pulled over and their 
legally purchased guns seized.
    The results of my investigation did validate all the complaints we 
received, and I appreciate the committee looking into this issue.

    Mr. Coble. Ms. McComas, you referred--you alluded to a 
``straw purchase.'' For the record, define a ``straw 
purchase.''
    Ms. McComas. A ``straw purchase'' would be if Mr. White was 
illegal to own a firearm, he would give me the money--I'm not 
saying John would do that. He would give me the money, and I 
would go buy the gun for him, and then give it to him. So I 
would mark down on the 4473 that it was for my own use----
    Mr. Coble. I got you.
    Ms. McComas. --and then I would give him the handgun and 
probably make a couple hundred bucks in the deal.
    Mr. Coble. And I knew that, but I wanted the record to 
reflect it. The Parker person to whom you referred, without 
objection, a copy of the affidavit will be made a part of the 
record, as will four additional statements that will be 
forthcoming.
    Folks, thank you for your testimony. Now, as I said before, 
there will be a 5:30 vote here. We apply the 5-minute rule to 
us as well. So if you all could keep your answers tersely, and 
if we can, we can move along here.
    Ms. McComas, I think you indicated that your investigation 
indicated that no rights were read to anyone whose weapons had 
been seized. Is that correct?
    Ms. McComas. Yes, sir. I couldn't find anyone who said 
their rights had ever been read to them at any point in the 
process.
    Mr. Coble. In your investigation, were you able to 
determine whether or not these kinds of practices about which 
we have just heard were being used in other regions of the 
country?
    Ms. McComas. I'm going to say no to that because we 
haven't--as the ATF was saying while they were at the gun show. 
This is a pilot program that they're going to apply to the rest 
of the country. That was what they stated to the organizers and 
to some of the dealers. So I don't believe they've implemented 
this program yet, but they certainly plan on it. They're using 
footage that they video'd, their floor work at the Showplace 
shows as a training video now for their young agents as how to 
spot a straw purchase at a gun show.
    Mr. Coble. Thank you.
    Mr. White, as a former law enforcement officer, do you 
think the residency checks are a valuable use of resources to 
deter or discourage straw purchases, ``A''? And, ``B,'' would 
you expect the police or law enforcement to maintain records of 
what homes they visited to determine who was eligible to 
purchase a firearm?
    Mr. White. To answer ``A,'' if there's probable cause. If 
there's no other reason just that I think it's wrong, then, no, 
I don't agree with the address verification. And, yes, if you 
do go and verify an address, you should maintain that for 
future purchases.
    Mr. Coble. Ms. Gelles, do your gun shows have a history of 
being connected to straw purchases or a place for a large 
number of prohibited persons to purchase guns? Is that the sort 
of reputation you all have?
    Ms. Gelles. No, not at all. Actually----
    Mr. Coble. Has the ATF ever furnished you with numbers 
indicating that firearms purchased at your shows end up or wind 
up in the use of crime?
    Ms. Gelles. Actually, we have asked for those numbers since 
after the August show, right after it, starting August--
September, we started requesting a FOIA presenting those 
numbers to us, and by our account from the Virginia State 
Police records, we have four to five arrests a year on average 
over the last 10 years with 45,000 public, bare minimum, coming 
in. So it is not a high number of people.
    Mr. Coble. Do you know, Ms. Gelles, whether or not a 
videotape was made during any of the gun shows?
    Ms. Gelles. I know for a fact there was. Cameras placed in 
the showplace building, Bill Crenshaw, the manager of that 
building, told us so. We found this out because the ATF sent an 
agent or somebody from ATF up to the Chantilly building, which 
is called the Dulles Expo Center, and told that individual that 
he had the permission of the show promoter, which is C&E Gun 
Shows, Robert S. Elliot, and he said they had permission, and 
they absolutely did not have permission. And he said, well, it 
is--when he was speaking to this manager, he told him that they 
had already had permission and done it twice at the showplace, 
at which point we found out that they had actually done it 
already and had video of the entire public.
    Mr. Coble. Mr. Lalime, how was this experience different 
from previous gun shows that you have attended?
    Mr. Lalime. Never before had that happened to me. I don't 
think I had seen it happen to anybody else. I definitely know 
it had a detrimental effect on the attendance of gun shows. I 
know personally I wouldn't attend gun shows if I knew that was 
going to happen.
    Mr. Coble. Thank you, sir.
    Ms. Gelles, my amber light is showing. I want to yield to 
Mr. Scott here. Let me conclude with this question. How many 
fewer weapons were sold that day as a result of the presence of 
a good number of law enforcement people?
    Ms. Gelles. Well, I would have to suppose that if there 
were half the public there, then half the number of guns, which 
would have cost the exhibitors a great deal of money. I mean, 
my losses were 14,000, bare minimum, one show. Theirs were at 
least 300,000, probably more. Plus people did not bring in guns 
because they were afraid to.
    Mr. Coble. And let the record show that I beat the red 
light. I recognize the distinguished gentleman from Virginia 
for 5 minutes.
    Mr. Scott. Ms. Gelles, is Virginia's one-gun-a-month law in 
effect at a gun show?
    Ms. Gelles. Yes, it is.
    Mr. Scott. What paperwork needs to be completed to purchase 
a firearm at a gun show?
    Ms. Gelles. People--you go to a dealer and you fill out a 
Form 4473 and an SP-65, which is the Virginia State Police 
background check.
    Mr. Scott. And is there an instantaneous check right there?
    Ms. Gelles. Supposed to be. We've experienced very long 
delays when this residency check process started up, up to 3 
hours for residents, people in Richmond, and minorities, and 
women also.
    Mr. Scott. What happened? Say that again?
    Ms. Gelles. People that were--that lived in Richmond, 
those--mostly anybody that lived in Richmond had a 3-hour delay 
or so at the beginning of the residency checks back in May of 
2004, and in July of 2004, it speeded up a little more, I think 
because they had more personnel. But exhibitors complained 
that--and we observed also that there was profiling of Blacks 
and also of women.
    Mr. Scott. Now, you said the dealers have--if you buy from 
a dealer, you have a background check. If you buy from someone 
who is not, quote, a dealer, do you have a background check?
    Ms. Gelles. No. There are product sales from individuals to 
individuals.
    Mr. Scott. At the gun show?
    Ms. Gelles. Right.
    Mr. Scott. In the gun show, not the parking lot sales.
    Ms. Gelles. If I catch one in the parking lot, I run him 
off or make him come in and buy a table.
    Mr. Scott. Mr. White, you had indicated that the presence 
of the ATF has been a positive thing at gun shows. Did I 
understand you right?
    Mr. White. Yes, sir.
    Mr. Scott. And does it help with the parking lot situation? 
Are they out in the parking lot, too?
    Mr. White. I'm inside, sir. I'm not sure what they do in 
the parking lot. I will say that we had people come in. I've 
had my life threatened. I've had people get on the phone and 
call up their boys, if you will, an unhappy purchase, and he 
was going to call his guys to come straighten things out. But 
since ATF has been involved in the law enforcement presence 
there, we haven't had that sort of clientele. So it has been a 
positive thing.
    Mr. Scott. Okay. Ms. McComas, you indicated that many 
people had a follow-up visit after the gun show and----
    Ms. McComas. In Pittsburgh, that's--yes, sir, they follow 
up about a week later. In Richmond, they were doing it during 
the show. They were actually holding the purchase up.
    Mr. Scott. And you suggested there was racial profiling 
going on?
    Ms. McComas. Oh, absolutely. Absolutely. Anyone who was a 
minority, they picked up their tail, if you will, and just 
literally followed them through the gun show. When they stopped 
at a table, the agents would literally stack one side or the 
other and watch what they were doing. If they started to 
purchase one, they'd ask them why they were buying it, what 
were they buying it for, what do you need that gun for?
    The one young lady said, ``You know what? I'm out of here. 
I'll just come back tomorrow,'' and the agent smarted off and 
said, ``That's fine. We're going to be here tomorrow, too. Come 
on. Come on back.''
    I mean, it was ridiculous. There was absolutely no reason 
for it except the color of their skin.
    Mr. Scott. Did you see any Whites subjected to this?
    Ms. McComas. They did do residency checks on Whites, and 
the one agent said to one of the dealers, ``Well, we have to do 
some or we're going to catch flack for what we're doing.'' So, 
you know, they were trying to cover their--cover their tracks, 
straight, simple.
    Mr. Scott. Thank you.
    Mr. Lalime, did you ever find out what your suspension was 
for?
    Mr. Lalime. Yes, sir. It was supposedly for back child 
support, but it was an error in their computer.
    Mr. Scott. So your license was not under suspension?
    Mr. Lalime. No, sir. I had to go back to DMV that following 
Monday, and I got my license.
    Mr. Scott. Did DMV, in fact, have your license suspended?
    Mr. Lalime. No, sir.
    Mr. Scott. Well, then, let me ask the question again: Did 
DMV have your license as under suspension?
    Mr. Lalime. I got it Monday. It wasn't under suspension. I 
didn't have to pay any kind of fees. I had to pay a $10 lost 
license. It was supposed to have been in error at the 
Department of Social Services.
    Mr. Scott. But the DMV had your license recorded as 
suspended, although it shouldn't have been suspended.
    Mr. Lalime. I guess so, sir, yes.
    Mr. Scott. Okay. So when the police said it was suspended, 
it was, in fact, suspended?
    Mr. Lalime. Yes, I guess that's the only good thing that 
came out of what happened. I found that out and was able to 
correct it.
    Mr. Scott. Okay. Thank you, Mr. Chairman.
    Mr. Coble. Thank you, Mr. Scott.
    The distinguished gentleman from Florida is recognized for 
5 minutes.
    Mr. Feeney. Thank you, Mr. Chairman.
    Ms. Gelles, about how many gun shows a year do you 
participate in?
    Ms. Gelles. I produce 14, 15 shows--let's see, I'm at 15 
now a year.
    Mr. Feeney. Okay. And this was the first experience you've 
had where ATF and the State Police in a consistent manner you 
felt were abusive or harassing customers and clientele.
    Ms. Gelles. Right. I mean, ATF agents have for years walked 
through as customers, and I'm sure doing investigations, those 
kind of things. Virginia State Police, there are always 
assigned--in the State of Virginia, it's State law that they 
have to have one person, one Virginia State trooper at the show 
in case there's any kind of problem with the background check, 
they can arrest them. And we have--we provide a room and 
telephone lines and let the Virginia State Police come in and 
do background checks on site. At most of the shows we have 
facilities to do it.
    Mr. Feeney. At any of the shows that you have done, other 
than helping with background checks, are there other problems 
that either ATF or State police need to deal with? You know, do 
you tend to have bar fights or riots or, you know, are they 
just a normal crowd, business type crowd?
    Ms. Gelles. Most of my crowd is very clean. They're 
families. My main customer is a White male in his--a middle-
aged White male that's college educated and they're usually 
from rural areas and they're wealthier than the average 
citizen.
    Mr. Feeney. But the reason for State Police and ATF, 
typically, is the reasons that Mr. White has outlined, the 
advantages of having them on site.
    Ms. Gelles. Right. Now, we don't have gangs congregating in 
our shows. I am sure anybody who draws 5 to 7,000 people--and 
one of my shows draws 11,000 people--there are going to be a 
few people in those shows that are bad apples that need to be 
policed, no doubt about it, but it's better to do it undercover 
and do it covertly, than overtly, and scare off the entire 
public.
    Mr. Feeney. You testified that in your opinion women and 
minorities were especially profiled by the ATF and State 
Police.
    Ms. Gelles. And that is true. We did observe that, and I 
had many exhibitors complain about it, and we had public call 
afterwards and complain about it, and I had e-mails about it. 
And the racial profiling is certainly important and should be 
noticed, and also women. I mean, I haven't heard much outcry 
about that, but the main thinking was that they were purchasing 
for their felon boyfriend, a straw purchase again.
    Mr. Feeney. The other group that you mentioned being 
profiled were people in Richmond. I think Mr. White indicated 
that too. Can you just tell me briefly, is the population at 
the gun show that day from Richmond disproportionately Black, 
for example, or women, or other minority, or was this a 
geographic bias alone, in your opinion?
    Ms. Gelles. Some of it was a geographic bias for the 
Richmond area because I think that's just the way their 
operation was set up, that they had police to go to those 
homes----
    Mr. Coble. Would the gentleman suspend? Repeat that. I 
didn't hear your question.
    Mr. Feeney. Well, Mr. Chairman, my question was, for 
example, if the Richmond customers had been disproportionately 
Black, for example, and Richmond customers were being targeted 
because of their residency, then that could be a racial 
profiling effort in and of itself. I guess that was my 
question.
    Ms. Gelles. Actually, most of the people that attend the 
shows are White.
    Mr. Feeney. Including from Richmond?
    Ms. Gelles. Including from Richmond. Richmond is 65 percent 
Black.
    Mr. Feeney. Your Richmond customers that day were similar 
to the general profile of your other customers, roughly?
    Ms. Gelles. Roughly. Most of the customers are White. We 
have a small percentage of Blacks that attend. Richmond itself 
is 65 percent Black, but those were----
    Mr. Feeney. And did anybody mention--Mr. Lalime, I know 
that we probably don't have any lawyers, let alone civil rights 
lawyers here, but did anybody mention that it is a Federal 
crime to deny women or minorities their civil rights, and, you 
know, a lot of people--I got friends in the press that read the 
first amendment and stop. They think the civil rights are over. 
They never get to the second amendment, but has anybody ever 
mentioned to the ATF, Mr. Swann or anybody else at the ATF, 
that denying civil rights, including the right to bear arms, is 
a Federal crime, section 1865?
    Ms. Gelles. We didn't state it quite that way, but we went 
for three meetings with John Malone, who was the ASAC for the 
region, which means over Virginia, Maryland and D.C., and we 
did just that. We said, you know, they're profiling. They can't 
do this. And the answer was, the problem is 90 percent Black.
    Mr. Feeney. I trust that any of you that have asked for 
information, including Ms. McComas, from the ATF, none of your 
requests have been answered? You haven't been given a profile 
of the people arrested or detained?
    Ms. McComas. No. We haven't been given a conviction rate, 
which is actually the most important stat. If they're going to 
spend all this money and manpower, they should have something 
at the end of it. They should have some convictions, and they 
haven't been able to show a single one.
    Mr. Feeney. Well, Mr. Chairman, and, Mr. Scott, I would 
suggest that perhaps we do a letter to the ATF and request this 
information, because profiling people on their second amendment 
rights, whether they're women or Black or another protected 
minority, and a conspiracy to do that, is a very significant 
allegation, but it's a mere allegation. It's a bare assertion 
unless we have some evidence.
    And with that, I'll yield back the balance of my time.
    Mr. Coble. If the gentleman will suspend, we have done 
that, and the ATF will appear before us at the conclusion of 
the President's Day work period. I thank the gentleman.
    We've been joined by the gentlelady from Texas. Good to 
have you with us, Sheila.
    And in order of appearance, the distinguished from 
Massachusetts is recognized for 5 minutes.
    Mr. Delahunt. I thank the Chairman, and I didn't intend to 
stay for this hearing, but I find it rather fascinating.
    Ms. McComas, these must be the dumbest ATF agents in the 
entire agency.
    Ms. McComas. You just want to shake them and say, ``Go out 
and get some real criminals.''
    Mr. Delahunt. I mean I'm not saying I disbelieve you, but I 
am absolutely shocked that they could be that stupid to 
articulate--you know, it's almost to the point where it's 
difficult to believe. In my former career I was a prosecutor in 
the greater Boston area, and my office worked well with the 
ATF. In fact, we served on a variety of task forces, and let me 
be very clear, I have never heard of an experience like the one 
that you recount, but you all seem to be in agreement. It's 
just mind boggling.
    And I just heard the Chairman indicate that we would have 
testimony from the ATF. I'm only--I should express my 
disappointment to the Chair and to the Ranking Member, because 
what will happen is that your testimony is very, very similar, 
and I only wish that we had a representative from the ATF here 
to listen to what you say, and to respond, either to deny, or 
explain, or have an opportunity, rather than have a bifurcated 
series of hearings.
    But, again, my own experience is such that I would 
conclude, if I didn't hear you, that this is just a story, it's 
made up. But, obviously, you're under oath and I accept what 
you say as being--but this has to be an aberration.
    Ms. McComas. I've worked with some excellent ATF agents. I 
honestly have. There are some of them that I have genuine 
respect for. This was not down to the field agents, let's make 
that clear. Whoever was running the show was overboard.
    Mr. Delahunt. Are we speaking about one particular 
incident?
    Ms. McComas. Well, the Richmond Gun Show sting went on for 
16 months total, but----
    Mr. Delahunt. I mean I have no problems with a sting, but I 
think you, or maybe it was Ms. Gelles that indicated a good 
sting is going to be done in a way that is covert, that, you 
know, no one will be aware of it until the end of--till the 
conclusion of the investigation. I mean this is not a sting. 
This is--you know, I could also see having presence at a gun 
show, simply to serve as deterrence to those who might want to 
circumvent the laws. Having police presence, obviously, does 
play--can play a positive role if done in such a way with 
respect for those who are in compliance with the law is 
demonstrated.
    You know, I read the testimony while we were waiting here, 
from Mr. White, and there seems--let me direct a few questions 
at Mr. White so I just don't keep rambling on here.
    You indicate that there was a display of gang activity that 
largely seems to have ceased as a result of ATF presence. Am 
I----
    Mr. White. Yes, sir, in the beginning----
    Mr. Delahunt. So it does have a positive impact.
    Mr. White. When it's regulated and when it's done properly 
with probable cause. The gang problem has pretty much 
disappeared. The problem of every woman that makes a purchase, 
every woman that comes to my table to buy a gun is 
automatically a straw purchaser. I sell custom firearms, target 
weapons, tactical weapons, and we set and speak with these 
people, talk to the ladies, and, you know, find what they're 
actually doing with them, what we need to fit them with. But 
every woman who shows up is automatically a straw purchase.
    That date in August, if a woman showed up at my table, she 
was surrounded by law enforcement, not just ATF, but other 
agencies were involved in that too. And if the lady walked off 
and suddenly stopped, they'd have bumped into each other. I 
mean their surveillance methods were pitiful.
    Mr. Delahunt. But what we're talking about here is 
enforcement. You know, I'm not saying that this is an 
unimportant issue because there are rights that are at stake 
here. Yet, at the same time, you know, we have a responsibility 
on this Committee and on the full Committee that deals with a 
wide array of issues. You should have been here this morning. 
It was a rather interesting discussion about those that, if you 
will, advocate for aggressive oversight, and those that don't.
    I believe in aggressive oversight to ensure individual 
liberties, but at the same time, I'd like to just know if this 
is an aberrational situation.
    But while I'm here, I come from a different part of the 
country, the Northeast. I think you can probably guess that we 
have different State policies in terms of gun issues, and I 
think that's true of most large urban centers. You know, I want 
more ATF agents up in Massachusetts. Bring them on, because 
they can make a difference in terms of our homicide rates, and 
they have, and we're rather stringent and strict in terms of 
the issues of guns.
    Let me direct this to Mr. White. Again, having read your 
statement, I would infer that you support the background check 
rules. You would require them for unlicensed sellers as well. 
Is that a fair conclusion?
    Mr. White. I think there needs to be more scrutiny on the 
people that come in with a private collection. I've seen 
private collections grow. These guys are buying guns from 
individuals and putting them right back out for sale. To me, 
that's not a private collection. I think there needs to be more 
scrutiny on that because there is no paperwork done there. As a 
Federal firearms dealer I'm required to do paperwork, maintain 
the paperwork, and any time a weapon that I've sold is involved 
in any sort of crime and ends up in any police evidence room, I 
get an ATF trace, which I've only had one in the years I've 
been in business. I get an ATF trace, and I have to say who 
that gun was sold to.
    So we don't want to sell guns to people that they don't 
belong with. Certainly, I want to keep them out of those hands 
because my friends and family are out there on the street. I 
don't want guns getting in the wrong----
    Mr. Delahunt. See, I have a particular concern about gun 
shows, not that they can't be run well and done in compliance 
with the law, but I certainly don't want any of, you know, the 
criminal element from Massachusetts coming down to Richmond and 
getting out in the parking lot and buying a gun and coming back 
up to Boston.
    Mr. Coble. Mr. Delahunt, I don't want to cut you off, but 
we need to hear from----
    Mr. Delahunt. I'll yield back, and I know we have some----
    Mr. Coble. We have a vote at 5:30, but, Ms. Jackson Lee, 
before I recognize you, if I may----
    Mr. Delahunt. Can I just have one--is there anybody from 
the ATF here?
    [No response.]
    Mr. Coble. Well, before I recognize Ms. Jackson Lee, folks, 
I want to reiterate what I said at the outset. I don't want 
anybody to leave here thinking that it's time to disarm or 
decommission the ATF. The ATF serves a good purpose, and we 
will hear from them subsequently. We have some of the questions 
that they asked to be voiced today have been voiced. I want to 
ask you one more. And if you all have questions you want us to 
ask the ATF, we'd be glad to hear from you within the next 7 
days, during which time this record will remain open.
    But I want to urge all of you folks, don't leave this 
hearing room thinking that the ATF is a bunch of no good so-
and-so's because they do serve a good purpose.
    Now, what I've heard today in the case is that maybe they 
went beyond the pale, but we'll hear from them when they have 
their day before this Subcommittee as well.
    I'm now pleased to recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Mr. Delahunt, if you wait, if we meet the 5:30 deadline, if 
you want to continue your questioning, you may do so.
    Mr. Delahunt. [Off microphone comment.]
    Mr. Coble. All right, thank you, sir.
    The gentlelady from Texas.
    Ms. Jackson Lee. But he hasn't run out of steam. Thank you, 
Mr. Chairman.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and to 
the Ranking Member for an important Committee hearing. I might 
track Mr. Delahunt's outrage, but also suggest--I know I have a 
good friend from North Carolina--I might be able to convince 
him. We were here just a few hours ago talking about the 
overreach of the Federal Government and the need for oversight 
and investigation. With this hearing as a backdrop, let's hope 
that we can secure both a bipartisan effort in making sure that 
things work, and that we exercise our oversight.
    So I want to thank Mr. Scott for bringing this matter to 
our attention. I know that it occurred in his jurisdiction and 
he should be complimented and applauded.
    I would like to put it, however, in the context that you've 
come to us, so that we can fix whatever the elements are that 
take away from Project Exile, which is a project that has been 
supported by the majority in this Congress, which happen to be 
my Republican friends, and I think it's important to emphasize 
that it's the concept, Mr. White, of a joint task force, where, 
of course, you have local law enforcement inviting the ATF 
officers in, and I also think it's important to note that the 
record shows, or my facts are showing me that there were only 
about 6 to 8 ATF officers and the rest were all local law 
enforcement.
    So the next step that I would like, or at least I would 
like to add, let us try to make sure that that task force works 
well, and who am I to tell local law enforcement that they need 
40 versus 20, but that may be a reasonable response to draw in 
the excessiveness or the appearances of such.
    Might I also say that race permeates society, and I am as 
much in consternation over racial profiling on buses and trains 
and planes and on highways, and I would welcome the support of 
many of you on some extra work that we have to do, which 
includes passing hate crimes legislation that may help us on 
that idea, but certainly I know that we can have sufficient 
oversight with the ATF, that that would not be the mode of 
their operation. So I will join you in that concern and work 
with our Committee to ensure that that happens.
    Let me just offer some thoughts, and I would like to pursue 
a line of questioning that Mr. Delahunt--but let me quickly, 
Ms. Gelles, you--is it Gelles?
    Ms. Gelles. Yes, it is Gelles.
    Ms. Jackson Lee. That having been the gun show operator, 
I'm sure that you see a lot of different scenes and 
populations, and so I would ask whether or not you have seen, 
or do you believe that there is significant criminal activity 
that occurs at gun shows in the Richmond area?
    Ms. Gelles. No, I don't think there's a lot of criminal 
activity. I know that you'll see some people walk in that will 
have gang looking clothes on and that kind of things. I 
actually hire two Henrico County Police to sit at the front to 
deter this kind of person from coming in. I tell them to follow 
them through, make them feel unwelcome. The Virginia State 
Police is there. They also do the background check. There are 
not a large number of gang people that congregate in these 
shows, so I don't believe that's the case.
    I think that we need some policing. I don't think ATF is 
all bad at all. I think that we do need them because we can't 
police ourselves. When we have a problem, we need them there to 
take care of it. But most of the time, no, it is not a large 
amount of those people.
    Ms. Jackson Lee. Let me just say that I just came from a 
Homeland Security hearing where intelligence is very important. 
And one of the things that we've discovered, that everyone who 
is in the business of doing wrong doesn't necessarily look that 
way. And I want to applaud you for, you know, keeping a clean 
shop.
    But let me put this on the record, to say to you that you 
did say no, but you might be surprised to find out that because 
of the law enforcement activities of ATF and the Virginia State 
Police at the Richmond area gun shows, during 2004 and 2005, 25 
criminal cases were recommended for prosecution for violations 
of Federal law. The ATF reports that these cases have resulted 
in the conviction of 19 defendants so far, and the convictions 
were such crimes as possession of firearms in relation to a 
crime of violence or drug trafficking, 18 USC section 922; 
possession of firearms by a convicted felon and possession with 
intent to distribute a controlled substance. So ATF has also 
told this Subcommittee that since May 2004, firearms used in 
four homicides have been linked to two transactions occurring 
at Richmond area gun shows.
    So my point is, is that I buy into what you're saying, 
let's help fix it, but this is an effective program. Let's help 
them not do some of the things that both of us would find 
outrageous, but there have been notations of criminal activity, 
and in fact, there have been conditions.
    And I'd ask indulgence of an additional minute to ask Mr. 
White, Mr. Chairman?
    Mr. Coble. Without objection.
    Ms. Jackson Lee. Mr. White, and thank you, Ms. Gelles, very 
much for your----
    With a little bit of humor, Mr. White, this hasn't been a 
good week for guns. I'm from Texas, so you know we've had some 
missed shots, and quail, and misidentification of individuals 
that have unfortunately been at the wrong end of a barrel.
    Mr. White. Yes, ma'am.
    Ms. Jackson Lee. But I do understand the value of business 
and doing things the right way. You have made a point that I 
think is very important in pursuing because it's the gun show 
loophole, and you have the Federal documentation, Federal 
paperwork. I assume you're still in business.
    Mr. White. Yes, ma'am.
    Ms. Jackson Lee. So why don't you just expand on this 
question of, do you think that all gun buyers at gun shows 
should undergo background checks regardless of whether they're 
buying from licensed or unlicensed sellers, and would you 
support legislation requiring such checks at gun shows? Now, 
you know, legislation is a heady word, so why don't I just 
focus you on the value of undergoing it, and you could put in a 
personal experience, that you are still functioning, you're 
still standing, you're still selling, I hope, and you're still 
doing it the legal way. Mr. White.
    Mr. White. You know, there is--there are dealers there that 
are not dealers. There are people there that sell their private 
collections. There are no--they don't even get a driver's 
license number. They don't know who they sold the gun to. Once 
the gun's gone, it's gone. You don't know where it went.
    We do the paperwork. Yes, our business does very well. You 
know, I've had many young men, Black men and whatever, come in 
dressed like gang members, and I sit there and talk to them. 
I'm not in such a hurry to make money. My income doesn't depend 
on my business. And I sit there and talk to the young man and 
find out that one these guys was military. The kid just got 
home from Iraq. He just wanted to dress like the rest of the 
guys and fit in. He didn't want to be the military guy. He 
wanted to look like everybody else. And in talking with him, I 
felt very comfortable selling this young man a gun. There are 
others that have come in that I've felt very uncomfortable and 
said, ``No, thank you. Leave. I'm not going to sell you a gun. 
I don't have to.''
    But I do feel like there should be more scrutiny paid to 
these, you know, things that take place in the parking lot, 
which is--that's out of the promoter's control, and inside, I 
really think there should be some at least identification as to 
what firearm you sold and where it went.
    Ms. Jackson Lee. So if we took your good advice and 
designed some legislation that closes that loophole, that would 
be a credible approach to take to include the guys, if you 
will, out in the parking lot and elsewhere that may not have 
the scrutiny, intent that you have, the good intent that you 
have?
    Mr. White. I'm not exactly sure how you'd do that, but, 
yes, ma'am, I think it would made a difference.
    Ms. Jackson Lee. And my final point is that you found that 
the ATF can work comfortably in these situations, but any 
oversight we give to them would be welcome as well.
    Mr. White. Yes, ma'am. I think that--and I put in my 
statement--that there needs to be a clear plan of action. There 
needs to be a operational plan, and the operational plan needs 
to include what the outside agencies are going to do. I've 
supervised young police officers, and I know how they get. You 
get a whole bunch of them, they want--they're busy. They want 
something to do, so they begin to expand outside of the 
operational plan. This supervisor's paying attention to this 
group, and you've got all these other guys doing other things. 
When you have 60 guys to supervise, and there's six ATF agents, 
that's a little impossible.
    Mr. Coble. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank Mr. White, and I thank you for 
your indulgence, Mr. Chairman.
    Mr. Coble. Mr. White, finally, since you did not consume 
all of your 5 minutes, I'm going to extend what Ms. Jackson Lee 
was pursuing, and I think you may have already answered it, and 
my question to you is, in your opinion, as a former law 
enforcement officer, is it your belief that there was adequate 
supervision over the agents who were at the show?
    Mr. White. At the one at the raceway, the one in August? Is 
that the----
    Mr. Coble. Yeah.
    Mr. White. No, sir. I think there was a lack of 
supervision. There were a lot of young officers there, and I 
don't think there was enough supervision. That's why they got 
in the trouble they were in.
    Mr. Coble. What I suggest to you all, if you have questions 
to for us to put to ATF, let us know in the 7-day period.
    Now, here is another question, the final question that was 
requested that I put to you all by the ATF, and I want to 
direct it to Ms. Gelles. Ms. Gelles, I am told that you and 
other gun show promoters recently participated in what was a 
productive meeting, I'm told, with senior ATF officials. If you 
will, share with us some of those agreements that were reached 
with the ATF, and about any initiatives on which you and your 
colleagues will be partnering with ATF in the future.
    Ms. Gelles. We discussed the residency check, and Michael 
Bouchard, in that meeting, said that they would continue 
residency checks with probable cause. That's my understanding, 
that they are not going to continue the residency check as a 
blanket kind of effort at the shows. In other words, every 
individual that comes in the show is not going to have a 
residency check performed on him. Also, I guess that's all we 
actually covered in that meeting.
    Mr. Coble. Do you feel that it was productive?
    Ms. Gelles. It was somewhat productive. I would like to see 
the conviction rates from May of 2004 till now. Ms. Jackson 
brought up that there were 56 arrests or 56 charges, I believe. 
We'd like to see how many convictions actually came out of 
that, and we'd like you all to get the FOIA or that information 
the best you can from ATF. 56 out of--since May of 2004, we 
pulled 45,000 people through that. That would be--56 charges 
would be .001 percent, so that's not really good use of money 
and law enforcement's valuable resources. I don't think you 
need 450 law enforcement assigned to a single little show like 
that.
    Mr. Coble. I think this has been a productive hearing. Mr. 
Scott, again, I thank you for working with our staff on this. 
As I said to you all earlier, the ATF will be before us on 
February the 28th, so that's for your information.
    And I want to repeat again, folks, we're not here to buggy 
whip the ATF, but we want to examine all relevant evidence, 
which I think we've done at least partially today, and we will 
await the ATF's appearance.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Coble. Yes?
    Ms. Jackson Lee. I'd ask unanimous consent to put the rest 
of my questions, written questions into the record, and ask for 
the ability of the witnesses to provide answers.
    Mr. Coble. Without objection, that will be done.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Coble. And we want to thank the witnesses, and those in 
the audience as well, for your attendance today and for the 
testimony presented. In order to ensure a full record and 
adequate consideration of this important issue, the record will 
remain open for additional submissions for a 7-day period. Any 
written questions from any Member of the Subcommittee to submit 
to you all, must also be submitted within that 7-day period.
    This concludes the oversight hearing on the Bureau of 
Alcohol, Tobacco, Firearms and Explosives: Gun Show Enforcement 
(Part I).
    Thank you for your cooperation, and the Subcommittee stands 
adjourned.
    [Whereupon, at 5:24 p.m., the Subcommittee was adjourned.]


 BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES (BATFE): GUN SHOW 
                              ENFORCEMENT
                               (Part II)

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable Tom 
Feeney (acting Chair of the Subcommittee) presiding.
    Mr. Feeney. The hearing will come to order. If the 
witnesses can take their seats, please. Thank you for being 
with us today. We will hope that we're joined by some of our 
colleagues. Chairman Coble will be here briefly, but in the 
meantime Congressman Scott and I will proceed, and again we 
thank you for your participation.
    Today the Subcommittee on Crime, Terrorism, and Homeland 
Security is conducting a follow-up oversight hearing on the 
Bureau of Alcohol, Tobacco and Firearms and Explosives 
operations at gun shows near Richmond, VA, between May 20, 
2004, and August 2005. Prior to the President's Day work period 
a similar hearing provided eye-opening firsthand testimony 
about the ATF's operation, which appears to have been heavy-
handed.
    Today we will hear from ATF representatives and other law 
enforcement involved in the operations in question. During the 
previous hearing we heard from four witnesses; Mrs. Annette 
Gelles, one of the gun show promoters, who stated excessive law 
enforcement presence reduced attendance by 50 percent and cost 
her company some $14,000 in admissions receipts and cost 
exhibitors a great deal more. According to her, ATF agents 
approached and dissuaded attendees from purchasing a firearm, 
which probably intimidated others from even considering 
purchasing a firearm. She explained that residency checks were 
far more detailed and lengthy than what is required or 
ordinarily performed.
    Mr. James Lalime, who attended one of the shows, said he 
was unnecessarily harassed, and ATF agents tried to intimidate 
him and were wearing offensive clothing.
    Mr. John White, an exhibitor from the show, detailed 
complaints from customers about residency checks that involved 
law enforcement agents contacting neighbors and family members. 
According to Mr. White, this had an enormous impact on his 
business.
    The final witness, Mrs. Suzanne Macommis, a private 
investigator, testified that while some of the shows' attendees 
were randomly stopped and questioned, the ATF confiscated 
firearms from many others, confiscations including a notice 
that the person may have committed a felony punishable by 
imprisonment for up to 5 years and ordered to appear at the 
local ATF office the following day. Failure to appear could 
have resulted in a Federal arrest warrant.
    As Chairman Coble indicated at the previous hearing, and it 
bears repeating today, these hearings are in no way an attempt 
to impugn or diminish the reputation and dedication the fine 
ATF and its agents. This statement applies equally to the 
officers of the Henrico and Richmond police departments. We 
appreciate your dedication and sacrifice to keep our 
communities safe; nevertheless, we are puzzled by the 
allegations about the manner in which private property was 
confiscated, individuals were falsely alleged to have committed 
offenses, required to report to the local ATF office, and 
generally mistreated by agents during these shows.
    I look forward to your testimony and hope we can shed some 
light on the concerns that the Members of the Committee have.
    Before introducing the witnesses, I would be honored to 
recognize the Ranking Member of the Subcommittee, the 
distinguished gentleman from Virginia, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding a second hearing on issues relating to law enforcement 
activities in the Richmond area in August of 2005. The last 
hearing we heard from witnesses who had criticisms of the 
activities of the ATF and other law enforcement operations 
during the show. While noting that the gun show enforcement 
activities have generally been conducted well within expected 
limits and totally appropriate and commendable, and are, in 
fact, welcomed at the gun shows, witnesses made very serious 
allegations about the things that went on in August of 2005. 
Newspapers across the State reported these allegations 
following the gun show.
    Today we will hear from the ATF regarding their response to 
those criticisms and their involvement with respect to 
regarding enforcement activities at that gun show. We'll also 
hear from representatives from Richmond and Richmond City and 
Henrico County regarding their involvement and perspectives on 
gun show enforcement activities.
    Mr. Chairman, as I pointed out at the last hearing, we have 
different views on gun control and what the laws should be for 
gun shows. However, until the current laws are changed, we are 
stuck with the laws as they are, particularly the egregious gun 
show loophole.
    Mr. Chairman, I look forward to the testimony of our 
witnesses today to gain further insight as to what happened and 
how we might avoid even the appearance of impropriety in 
enforcing our Nation's laws. Thank you, Mr. Chairman.
    Mr. Feeney. Thank you, Congressman Scott.
    Gentlemen, it is the practice of the Subcommittee to swear 
in all witnesses that appear before us. If you would please 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Feeney. Thank you. Let the record show that each of the 
witnesses answered in the affirmative.
    Again, thank you for being here today. We are honored to 
have you three gentlemen. I'm going to introduce the first, and 
Congressman Scott is going to introduce two of his neighbors 
and constituents subsequently.
    Our first witness is Michael Bouchard, Assistant Director 
of Field Operations at the Bureau of Alcohol, Tobacco, and 
Firearms. In his capacity Mr. Bouchard conducts oversight of 
all field operations, encompassing regulatory and criminal 
enforcement. Previously he served as resident agent in charge 
of the Springfield, Massachusetts office, and is Deputy 
Assistant Director for the Office of Strategic Intelligence and 
Information. He received his B.S. From the University of New 
Haven and an M.S. Degree from the National War College.
    With that, I'd like to recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, we have two distinguished law enforcement 
officials from the Richmond area. From Henrico County, we have 
Colonel D.A. Middleton, who has been on the force for over 30 
years and promoted through the ranks with the police division 
to his current position where he serves as deputy chief of 
police. He grew up in Henrico, has an associates of science 
degree in criminal justice and a bachelor of science degree in 
organizational management. He has additional studies at the 
University of Louisville in Kentucky, the Jefferson School of 
Leadership at the University of Richmond, and Senior Management 
Institute For Police at Harvard University. Prior to his 
employment as a police officer, he was a highly decorated 
Vietnam Army war veteran.
    We also have with us from the Richmond area, David M. 
McCoy, who is a major in the Richmond City Police Department. 
He covers operations area 2. Prior to that he was the major in 
field services; prior to that, a field captain. He has 
obviously extensive police background. His professional 
educational background is a B.A. from Canisius College in 
Buffalo, and Virginia Commonwealth University he has a master 
of science in criminal justice; additional studies at VCU, 
University of Richmond, and the Police Foundation Fellow at the 
Police Foundation, Washington, DC
    He's also an adjunct professor at Virginia Commonwealth 
University. He has a ton of recognitions and awards, but one of 
the two community service activities that I think are 
noteworthy, he's a board member of the Police Athletic League 
in Richmond and also a board member of Richmond Weed and Seed, 
which shows that he's not only enforcing the law, he's 
preventing crimes from occurring in the first place by working 
with our youth.
    I commend both of our law enforcement officials from the 
Richmond area.
    Mr. Feeney. Thank you, Mr. Scott.
    Mr. Delahunt, you're welcome to make an opening statement 
if you'd like.
    Mr. Delahunt. No. It's Canisius. Great basketball there at 
one point in time.
    Mr. Feeney. Gentlemen, we are going to ask each of you, 
we've got your written remarks in full, and we would like you 
to summarize those remarks and take up to 5 minutes to do so. 
We have some lights in front of you. There's no severe penalty 
for going a little bit over, but we'd ask you to wind things up 
when we get to the red.
    With that, we'd like to welcome all of you. Mr. Bouchard, 
you're recognized.

  TESTIMONY OF MICHAEL R. BOUCHARD, ASSISTANT DIRECTOR FIELD 
OPERATIONS, BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES 
                            (BATFE)

    Mr. Bouchard. Thank you. Good afternoon, Mr. Chairman, 
Congressman Scott, Congressman Delahunt and Members of the 
Committee. Thank you for the opportunity to appear before you 
today to discuss ATF's significant contributions relating to 
our enforcement----
    Mr. Feeney. Can you--we have to record this for our 
Congressional Record.
    Mr. Bouchard. Specifically we'd appreciate the opportunity 
to outline our law enforcement efforts related to eight gun 
shows in and around the Richmond, Virginia, area between 2004 
and 2005.
    I'd like to begin by recognizing my colleagues for their 
appearance here today as well as their support on a daily 
basis.
    We acknowledge some techniques used in our Richmond 
operations were not implemented in a manner consistent with 
ATF's best practices. In this isolated incident we have 
determined that we could have done better by having the law 
enforcement command post and briefings offsite of the gun show, 
by not utilizing a letter to convey possible violations of law 
when guns were taken into custody, and by more thoroughly 
explaining the parameters for conducting for residence checks. 
However, we, along with our law enforcement partners, feel very 
strongly that our efforts at Richmond gun shows have reduced 
violent crime and made the streets of Virginia and America 
safer.
    ATF's presence was necessary because criminals have been 
using Richmond gun shows as a source of firearms for years. 
Through the President's Project Safe Neighborhood initiative 
and the ATF-led Violent Crime Impact initiative, law 
enforcement, prosecutors, and community leaders work together 
to prevent violent crime. As a result of our efforts, gun 
prosecutions are up 73 percent, and violent crime is at a 30-
year low.
    ATF conducts investigative operations at gun shows across 
the country for various reasons. To put things in perspective, 
more than 5,000 gun shows are held each year in the United 
States, and we conduct investigations at approximately 2 
percent of these shows.
    ATF's presence at gun shows provides a valuable service to 
the community. Except for the issues surrounding the Richmond 
gun show operations on August 13 and 14, 2005, we have not 
received any complaints regarding this important element of our 
firearms enforcement program.
    I listened to the allegations of racial profiling leveled 
against ATF, and I can assure you they have no basis in fact. 
Our focus is on disrupting criminal activity without regard to 
the race or gender of those who appear to be engaged in 
unlawful acts.
    Between 2002 and 2005, more than 400 firearms sold by 
federally licensed dealers, also known as FFLs, at Richmond gun 
shows were recovered in connection with criminal activity, 
including homicides. Of this total, more than 300 were 
recovered in the Richmond area alone.
    To confront this problem, ATF and our State and local 
partners initiated a cooperative effort focused on the source 
of crime guns in the Richmond area, including gun shows. Again, 
the goal was to reduce violent crime by preventing illegal 
diversion of firearms and to investigate those who violate 
Federal firearms laws.
    Let me share an example of the outstanding police work done 
at these gun shows. On October 17th, 2004, at the Showplace Gun 
Show in Richmond, officers observed the straw purchase of a 
firearm by two males. After the firearm was purchased by one 
man and provided to the other, officers approached and 
conducted separate interviews. The purchaser admitted to having 
been paid by the other man to complete the paperwork and buy a 
handgun. He also admitted to having straw-purchased an AK-47 
rifle for this same man in an earlier Richmond gun show.
    Further investigation revealed that the primary subject, 
that second gentleman, was a ringleader in a Blue Ridge Crew 
street gang, and the suspect in a murder that occurred on July 
19, 2004, in Richmond. Agents and officers determined the 
murder weapon was the AK-47 rifle obtained at the earlier gun 
show just 9 days before the crime.
    The law enforcement presence at the show in October 2004 
caught these two criminals in the act and prevented another 
potential murder weapon from hitting the street. Our 
involvement led to a guilty plea by the gang leader, and he's 
been sentenced to 40 years in prison for murder.
    This is just one of the many countless examples. I hope I 
can share more later today.
    Between May 2004 and August 2005, law enforcement conducted 
a total of 302 residence checks. Of those, 47, or 16 percent, 
proved to be addresses where the purchaser did not reside. It 
should be noted that the residence checks were conducted on 
only 8 percent of the total guns purchased at these shows.
    Despite the concerns surrounding the operation on the 
weekend of August 13 and 14, the joint enforcement activity at 
eight Richmond gun shows prevented unlawful sales and uncovered 
criminal acts. We referred 25 individuals for prosecution. And 
also in the May and August 2005 show, we deterred at least 48 
blatant straw purchases from occurring.
    Statistics reflect that no firearm sold by FFLs in the 
August show in 2005 have been recovered in any crimes to date. 
In contrast, seven guns sold by the FFLs at the very next show 
in October have already been recovered in crimes. ATF has not 
worked at a Richmond gun show since August 2005.
    Just a few sentences left.
    Internal review has shown no evidence of misconduct nor any 
concerns reflecting negatively on the integrity of our agents 
and our partners.
    With regard to the concerns raised before the Committee, I 
have issued guidance to ATF personnel on policy and best 
practices related to gun show investigations, to include 
establishing guidelines for residence checks. Although our 
efforts at gun shows are only a small part of our overall 
firearms enforcement activity, they are a valuable tool in 
protecting our communities. Like everyone in the room, we're 
committed to reducing the violent crime that confronts America 
today. We're working diligently to enforce existing laws to 
keep firearms out of the hands of terrorists and criminals 
while remaining sensitive to the rights of law-abiding citizens 
to engage in firearms-related commerce.
    Mr. Chairman, ATF and our partners have made a difference 
through our efforts at Richmond gun shows. We all have a vested 
interest in making our community safer, and we take that 
responsibility seriously. I look forward to answering any 
questions that the Committee may have.
    Mr. Feeney. Thank you, Mr. Bouchard.
    [The prepared statement of Mr. Bouchard follows:]

                 Prepared Statement of Michael Bouchard

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Feeney. Lieutenant Colonel Middleton, you're 
recognized.

 TESTIMONY OF D.A. MIDDLETON, DEPUTY CHIEF OF POLICE, HENRICO 
                    COUNTY POLICE DEPARTMENT

    Mr. Middleton. Mr. Chairman, Members of the Committee, on 
behalf of Colonel Stanley, thank you for the opportunity to 
appear here today and describe to you the participation in the 
gun shows that occurred on August 13 and 14, 2005, in Henrico 
County.
    The Division of Police assisted the Bureau of Alcohol, 
Tobacco, and Firearms with an operation at the Great Southern 
Weapons Fair at the Richmond International Raceway Complex, 
which is located in our county. ATF orchestrated and 
coordinated the operation with the assistance of Henrico 
County's Division of Police, Richmond Police Department and the 
Virginia State Police. Organization for this operation began on 
June 27, 2005, with a meeting at the Richmond Police Academy, 
and in attendance were agents from ATF along with 
representatives from the Richmond Police Department and Henrico 
County Police Department.
    At this meeting ATF provided information concerning the 
after-action report for the May 21 through 25, 2005 Dixie 
Classic Gun and Knife Show at the Showplace in Henrico County. 
We were advised that 17 sales had been discouraged and 14 
denied by VSP instant background checks.
    In addition, the Richmond Police Department conducted 44 
residence verifications at the request of ATF. Nine individuals 
provided false information on their State police form about 
their residency, if the address did not exist or a subject 
indicated that the buyer did not reside there. Thirteen 
addresses were unverified because no contact was made at the 
residence. ATF advised there would be follow-up investigation 
to determine if the residency was valid.
    The question of the legality of the residency checks was 
directed to ATF representatives during the meeting. ATF agents 
advised that they were checking with their attorneys. The 
Richmond Police Department also indicated that they had 
participated in residency verification checks at the request of 
ATF at previous gun shows without incident.
    The next meeting occurred for the Richmond International 
Raceway Gun Show on July 29, 2005, at the Richmond Police 
Academy. Again, similar individuals were in attendance at this 
meeting representing the various agencies. Prior to the 
meeting, ATF Special Agent Curtis Marshall inquired via 
electronic mail about Henrico's participation. He further 
advised that a legal opinion concerning these checks would be 
forthcoming. Prior to this meeting, Curtis Marshall suggested 
using an 8-mile radius around Richmond to determine which 
Henrico gun buyers would be subject to residence verification 
checks.
    Representatives from the Henrico Police Department agreed 
to participate in these checks based on information previously 
provided by ATF concerning straw purchases and invalid 
residences from the May after-action report.
    Further, Henrico officials decided to verify residency on 
all purchases conducted by Henrico residents so as to avoid any 
appearance that any resident's verifications were arbitrary in 
nature.
    On Wednesday, August 3, 2005, ATF Special Agent Curtis 
Marshall forwarded an electronic mail message with two 
attachments to Henrico Police Investigator Richard Howser. The 
first attachment was the residence check sheet. Henrico Police 
Department and the Richmond Police Department officers, when 
confirming residency of the gun buyer, use this form. ATF 
Special Agent Curtis Marshall indicated he wanted a uniform 
document to capture the residency information.
    The second attachment was the ATF operational plan for the 
August 2005 gun show. This operational plan outlined the use of 
the residence checks and staffing issues.
    On Saturday, August 13 and 14, 2005, ATF Special Agents 
Brian Swann and Curtis Marshall conducted briefings of all 
assigned personnel at 10 a.m. on each day. ATF Special Agent 
Brian Swann reiterated the mission objectives of prevention, 
education and enforcement from the ATF operational plan.
    During the gun show Henrico personnel conducted six 
residence checks on Saturday, August 13th, and four on Sunday, 
August 14th. Each officer conducting residence verification was 
provided the residence check sheet from ATF. These officers 
were given 20 minutes from dispatch to reply with residency 
verification to the command post. No Henrico County purchases 
were denied or delayed due to the checks. Protocol indicated 
that the sale would be allowed to proceed if the residence 
verification was incomplete.
    In addition to officers assigned to conduct the residence 
verification, plain-clothes members of the Henrico Police 
Department assisted ATF, the Richmond Police Department, and 
the Virginia State Police inside the venue to monitor firearms 
transactions.
    We appreciate the opportunity to present these facts on our 
participation in this particular gun show, and thank you for 
the time that you have provided us to explain our 
participation.
    [The prepared statement of Mr. Middleton follows:]

                  Prepared Statement of D.A. Middleton

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. [presiding.] I want to apologize to my friends 
on the Subcommittee. I want to thank you, Mr. Feeney, for 
taking the gavel. And, for the record, folks, airports are 
becoming rapidly my least favorite places to be. But I 
apologize to all of you for my delay.
    Thank you, Colonel Middleton.
    Now, Mr. McCoy, we'll hear from you.

                   TESTIMONY OF DAVID McCOY, 
               CITY OF RICHMOND POLICE DEPARTMENT

    Mr. McCoy. Mr. Chairman, Members of the Committee, the city 
of Richmond values our partnership with our Federal agencies, 
in particular our strong working relationship with the ATF. 
Richmond has been plagued with issues surrounding violent crime 
and use of firearms associated with those crimes. Under our 
current leadership, we believe we are on the right track to 
success that will move us from a city of statistics to a city 
where major crime will not be an issue. Part of that effort 
involves enforcement of firearm offenses.
    In 1997, Richmond launched Project EXILE that is designed 
to remove those persons who are prohibited by law from 
possessing firearms and those who use firearms to further an 
illegal trade. This program has universal support because it 
focuses on a specific problem. This gun show enforcement was 
supported because information led us to believe that there were 
illegal transactions occurring at local gun shows, and if we 
can incorporate the same philosophy of enforcing existing 
firearms statutes, then we felt we could make an impact on 
those firearms that are being used for illegal purposes prior 
to them being used as an act.
    At no point was the intent to deny any citizen the ability 
to purchase a firearm, but rather prevent the acquisition of a 
firearm in an illegal manner which would relate to the use of 
that firearm in a commission of crime in the city of Richmond.
    We look forward to even stronger partnerships because we 
know at a local level in order to be completely successful we 
need the support of our Federal and regional jurisdictional 
support. Just as crime fails to recognize jurisdictional 
boundaries, good law enforcement practices recognize this issue 
as well.
    Thank you for allowing me to speak.
    [The prepared statement of Mr. McCoy follows:]

                  Prepared Statement of David M. McCoy

    The City of Richmond values our partnership with our federal 
agencies, in particular our strong working relationship with the BATF. 
Richmond has been plagued with issues surrounding violent crime and the 
use of firearms associated with those crimes. Under our current 
leadership we believe we are on the right track to success that will 
move Richmond from a city of statistics to a city where major crime 
will not be an issue.
    Part of that effort involves the enforcement of firearm offenses. 
In 1997, Richmond launched Project EXILE that is designed to remove 
those persons who are prohibited by law from possessing firearms, and 
those who use firearms to further an illegal trade.
    This program has universal support because it focuses on a specific 
problem.
    This gun show enforcement was supported because information led us 
to believe that there were illegal transactions occurring at local gun 
shows. And if we could incorporate the same philosophy of enforcing 
existing firearm statutes, then we felt we could make an impact on 
those firearms that were being used for illegal purposes.
    At no point was the intent ever to deny any citizen the ability to 
purchase a firearm but rather prevent the acquisition of a firearm in 
an illegal manner which would relate to the use of that firearm in a 
commission of a crime in the City of Richmond.
    We look forward to even stronger partnerships because we know at a 
local level, that in order to be completely successful, we need the 
support of our federal and regional jurisdictional support. Just as 
crime fails to recognize jurisdictional boundaries, good L.E practices 
recognize this issue as well.

    Mr. Coble. Mr. McCoy, you established some sort of time 
record. We don't have folks finish before the red light 
illuminates.
    I appreciate you all being here. Folks, I think I'll depart 
from our normal procedure. I'm going to let Mr. Scott commence 
the questioning and let me play catch up. Again, I hope you 
have not been too badly inconvenienced by my delay.
    Before I recognize Mr. Scott, Mr. Bouchard, I'm approaching 
this with an open mind, but at our last hearing the testimony 
that was given, and I have talked to Mr. Scott and others about 
this, it appears that the ATF came down in a heavy-handed way. 
Now, if I'm 180 degrees off course, you bring me back on course 
before the day is over. But it appears to me it was awfully 
heavy-handed, and I missed much of the testimony today, but I 
will play catch up here.
    But at this time let me--and, by the way, I appreciate what 
ATF does. I don't mean to be condemning ATF, and I made that 
clear at the last hearing. I said I don't want anybody leaving 
here trashing ATF. And I may be wrong, maybe it wasn't heavy-
handed, but the burden may well be on you, Mr. Bouchard, to 
convince me otherwise.
    I'm now pleased to recognize the distinguished gentleman 
from Virginia Mr. Scott for his line of questioning.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, let me first say how proud we are that our 
Federal and local law enforcement officers are working 
together, particularly in Henrico and Richmond. The criminals 
don't recognize the city-county line, and so we need to make 
sure that Henrico knows what's going on in Richmond and vice 
versa. The fact that they are cooperating, I think, is 
extremely helpful.
    Mr. Coble. I concur with that.
    Mr. Scott. Let me ask a question first to Mr. Bouchard. Is 
it Bouchard?
    Mr. Bouchard. Bouchard.
    Mr. Scott. The Federal law allows holding up the sale until 
a background check is completed. What is the statutory 
authority to hold up things while a residency is verified?
    Mr. Bouchard. ATF is not involved in doing the background 
checks before gun sales are made. As far as the residence 
checks here, we had a 20-minute time limit, which is typically 
how long it takes to do background checks by the Virginia State 
Police, before the handgun is sold.
    Mr. Scott. Is there any specific authority to do a 
residency check that you are aware of?
    Mr. Bouchard. That's an investigative tool, a general 
investigative tool. There's no specific authority to do that.
    Mr. Scott. The letter that people get when you take their 
firearm, it says that an investigation has revealed that an 
individual may have made false statements. Is that--do you do 
an individualized assessment on that that you believe that that 
individual person has done something for which there is 
articulable suspicion?
    Mr. Bouchard. Sir, that letter was used for the first six 
gun shows, and only used when probable cause existed to seize a 
gun.
    Mr. Scott. Individualized probable cause.
    Mr. Bouchard. Yes, sir. When the gun was seized, that 
letter, which ATF does not condone, and I have never seen it 
used before, nor will it ever be used again, basically means 
nothing. It has no effect on anyone.
    Mr. Scott. If they're not used in the future, no need to go 
over it again.
    I was going to ask if people had been Mirandized when they 
were given that letter.
    Mr. Bouchard. I don't know for sure, but in that situation 
it was not a custodial arrest, so they most likely would not 
have been Mirandized.
    Mr. Scott. Colonel Middleton or Mr. McCoy, we have 
background checks when people go in to buy a firearm except for 
this loophole with gun shows. Can you explain whether or not 
that creates a problem for law enforcement?
    Mr. McCoy. As far as the background checks in the State of 
Virginia, I don't see an issue in regards to that. How it 
related to the gun show element, we thought 20 minutes is a 
reasonable accommodating amount of time for any reasonable 
person.
    Mr. Scott. That's for the regular background check. If 
you're 2002 and FFL, you don't have to do a background check, 
you just hand the person the firearm. For those--not the 
regular background checks, but for those which there is no 
background check, does that cause a problem for law 
enforcement?
    Mr. McCoy. Well, because you don't know where that gun is 
going or where it's been, it could, yes. Yes, it would pose a 
problem.
    Mr. Scott. Would you recommend we close that loophole?
    Mr. McCoy. I would recommend.
    Mr. Scott. Colonel Middleton?
    Mr. Middleton. I would concur with that.
    Mr. Scott. Thank you, Mr. Chairman. No further questions.
    Mr. Coble. Thank you, Mr. Scott.
    The distinguished gentleman from Florida Mr. Feeney.
    Mr. Feeney. Thank you, Mr. Chairman.
    Mr. Bouchard, throughout your testimony that you provided 
us, you referred to best practices. Can you elaborate a little 
bit on what best practices are in this regard at gun shows and 
then follow up? Are they in writing or available to all agents; 
have they been reviewed by the Justice Department or lawyers?
    Mr. Bouchard. We have a gun show policy that ATF has, and 
it gives each field division some discretion on how they 
operate at gun shows. Most of the gun shows across the country 
we don't find are a source of crime guns. In pockets of the 
country it is, and there are different ways the criminals use 
in different parts of the country, so we give each field 
discretion.
    Mr. Feeney. So you only target about 2 percent of gun shows 
for extra surveillance and activity, and they are targeted 
because you have reason to believe or there's a history of 
gangs or other criminals accessing those gun shows in a way 
they don't do the other 98 percent?
    Mr. Bouchard. Before we work a gun show, there has to be 
some type of information it is a source of crime guns, or you 
may have information from an informant that a number of people 
are going to buy guns at a gun show. We don't just randomly 
work gun shows for the sake of working gun shows. There are a 
lot of other viable sources of guns out there that we spend our 
time on. When we do work a gun show, we do have some basic 
information or some justification for being there.
    Mr. Feeney. One of the more nefarious allegations--and I 
pointed out these were bare allegations at the last hearing 
because nobody had any evidence or statistics. You can't prove 
these things unless you know, A, the statistics; what was, for 
example, the entire population of the gun show, and certain 
people because of their race or ethnicity or gender 
overselected, and maybe there were even justifications for the 
overselection, but until you know the intention and the 
statistics, you can't prove these things. I pointed that out to 
the witnesses, who were very convinced that there was 
profiling.
    But having said that, the only way to ensure ourselves that 
the bare allegations are not true is to--is to get behind and 
look at the back-up information for the cases that were 
involved here. There were some 50 people singled out for 
residency checks, for example, the folks that were set aside 
for special questioning. Have you provided to the Committee 
unredacted records and documents that show exactly which 
individuals were subject to the special scrutiny?
    Mr. Bouchard. No, sir. We recommended 25 individuals for 
prosecution. We seized 50 guns; we gave 15 back.
    Mr. Feeney. My question is have you provided the Committee 
with the documents about the 50 people that were initially 
profiled?
    Mr. Bouchard. No, sir. I think some of them have been 
convicted, but some are still pending in court. We could supply 
those if you'd like.
    Mr. Feeney. Have we requested those, Mr. Chairman? I think 
if it's appropriate, if they are not secure because of reasons 
of prosecution or other exemptions, I think it would be very 
helpful.
    I don't think any of us want those allegations floating 
around. In my view, the second amendment rights are as 
important as any other rights, and we've got special 
protections for people in the United States.
    Turning your attention to tab 2, which is the residency 
check sheet or check form, was it local police only that were 
used to go do the residency checks, or were ATF agents involved 
as well?
    Mr. McCoy, do you know?
    Mr. McCoy. We used the expertise of the local law 
enforcement agencies. Because of staffing issues, it may have 
been an ATF agent, but there was always a local law enforcement 
officer available because they knew the street and area, and, 
again, we worked in a 20-minute time frame. If they couldn't do 
it, it didn't get done.
    Mr. Feeney. Mr. Bouchard, how was that document created?
    Mr. Bouchard. That's not a standard ATF form, that's a 
worksheet that the investigators use so when they do check a 
residence, they at least had some basic information. If anyone 
was going to check on a residence, they were asking the same 
questions. If you'd like, I can go through the form if that's 
what your intent is.
    Mr. Feeney. I'm more interested in knowing how it was 
prepared, whether any attorneys or anybody from the Justice 
Department was involved or advised you as to its 
appropriateness.
    Mr. Bouchard. No attorneys. It's a basic worksheet, just 
like notes an investigator would have. Instead, we tried to 
standardize what notes an investigator should take.
    Mr. Feeney. There were roughly 50 people selected for these 
residency checks?
    Mr. Bouchard. Three hundred two over the course of all the 
gun shows were checked; 47 gave bad addresses, then another 101 
that we could not verify that they live there, but the sale 
went through. We did not stop that sale.
    Mr. Feeney. So a little over half the cases you were able 
to verify that the people lived where they claim they did when 
they purchased the weapon.
    Mr. Bouchard. Just about that, yes, sir.
    Mr. Feeney. One hundred one plus forty-seven. It's just 
about a little over 50 percent.
    Turning to the flow chart, tab 3, did the ATF create this 
chart?
    Mr. Bouchard. Not that I know of, sir. I don't know where 
that form, that flow chart came from.
    Mr. Feeney. How was the 4473 form utilized with respect to 
this chart? Was it provided to local law enforcement?
    Mr. Bouchard. As far as I know, the Virginia State Police 
were using that and the Virginia firearms sale sheet to verify 
and do record checks.
    Mr. Feeney. My time is closing. I guess the thing--I 
appreciate the candor in admitting maybe best practices were 
stretched or violated here. I think it's important that we go 
forward and have appropriate access. All of us want to have 
secure weapons sales. We don't want weapons in the hands of the 
certifiably crazy or the certifiable criminal class. But having 
said that, I guess the most concerning allegations are those 
about ethnic or racial or gender profiling, and the only way to 
really alleviate and dismiss those allegations is to provide 
the names and the addresses of the 302 people that were visited 
and the 50-some people that were ultimately--well, actually 
anybody that was targeted either at the show or afterwards. And 
then candidly we need to have some general comparison to the 
population as a whole. There may be reasons; if the statistics 
are distorted, they may be justified, but if there is a 
distortion, there are further questions to ask, in my view. 
Thank you.
    Mr. Bouchard. If I can respond, I hope we can spend some 
time on the racial and those allegations because they're 
totally false, but we may not be able to provide you too much 
of that information because if someone--if we verify their 
address, that sheet and all the records were destroyed because 
there is no reason to keep a record of that firearms sale. If 
someone--if the 47----
    Mr. Feeney. Surely the dispatchers at the local level have 
a record of where your officers were for 20 minutes on any 
given day.
    Mr. McCoy. Not at this time frame. Those tapes get reviewed 
and reworked after a specific amount of time. But if I may just 
make a comment. Going into this initiative it was very 
important that the Richmond Police Department and ATF--is that 
when we did these residency checks, it was either the entire 
city, or we didn't do them at all. So we were very conscious of 
this particular point, and we stressed that throughout that if 
we weren't able to cover all the record checks that were coming 
in, we did not target, we didn't even think about targeting, a 
specific community, specific environment. It was if you're a 
resident of the city of Richmond, that's how we got involved. 
It was either all or nothing, and we want to keep stressing 
that point because that was an important pre-thought going into 
this initiative.
    Mr. Coble. The gentleman's time has expired.
    We have been joined by the distinguished gentleman from 
Florida.
    Mr. Feeney. He wishes he were from Florida. He's from lowly 
Texas.
    Mr. Coble. I'm sorry.
    Mr. Gohmert. I wasn't going to say anything. I was going to 
accept Florida.
    Mr. Coble. Mr. Bouchard, before I forget and begin my 
questioning, I want to make it clear to you, as Mr. Feeney just 
said, I realize there are some bad people who like to purchase 
firearms, and I by no means want to give anyone in this room 
the remotest conclusion that I'm defending those folks. When I 
said to you--and I didn't conclude that you were heavy-handed, 
I said it was my opinion that you were heavy-handed. You may be 
able to convince me I'm wrong about that. But there are bad 
folks out there, but I think most of the people, at least it 
appears from our last hearing, probably were not bad people. 
Anyway, that will be for later on.
    Mr. Delahunt, the gentleman from Boston.
    Mr. Delahunt. To the colonel and the chief, I did not 
understand the challenges that you have facing you. I think it 
was Mr. Bouchard's testimony which indicated that Richmond has 
a violent crime rate that is nearly three times the national 
average.
    Mr. McCoy. The city of Richmond is averaging about 85 
murders a year. We're a population of slightly under 200,000. 
The Richmond Police Department takes in about 1,280 firearms 
every year.
    Mr. Delahunt. That is a shocking statistic. I'm from 
Boston, and I would say our average is less than 85, and we 
have a population in excess of 600,000. So, gentlemen, you do 
have a serious challenge. At the same time obviously there is 
not a rationale for violating the civil rights and the 
protections afforded to all of our citizens, and I accept what 
you say, Director, in terms of racial profiling, gender 
profiling. There are law-abiding citizens who obviously wish to 
exercise their rights pursuant to the second amendment, but as 
a former prosecutor, that is a shocking statistic.
    I am pleased to note that ATF, the State police and the 
local police are working together in a coordinated way to 
address this problem. Keep it up.
    Also, Mr. Bouchard, it's very refreshing here in the United 
States Congress to hear a representative of a Federal agency 
acknowledge that best practices were not complied with in every 
particular case.
    Again, just perusing your testimony, I would suspect in the 
future that there would not be a command post on site, 
particularly during the course of a covert operation. But 
having that testimony is reassuring, and I think can account 
for some of the perception that there was intimidation. 
Obviously there was a large number of public safety officials 
there.
    It would appear, and you can tell me if I'm wrong, there 
were seven different gun shows; is that my understanding?
    Mr. Bouchard. Eight shows that we attended.
    Mr. Delahunt. It would appear there was one that caused, if 
you will, the concern that was expressed at the last hearing of 
the Subcommittee.
    Mr. Bouchard. I think some of it is getting blended into 
some of the other hearings. In the May show we only seized one 
gun. We seized no guns in August. All the other 50 guns that 
had been seized had been in the first 6 shows that happened 
earlier on in 2004 and earlier in 2005. We had changed our 
practices from reacting to straw purchases and blatant straw 
purchases to a more proactive--that we walked the floor; if we 
saw blatant straw purchases, we would try to stop those before 
they occurred.
    In fact, there was a big change in the number of guns that 
had been recovered in crimes. In 2003, 156 guns from these gun 
shows turned up in crimes; in 2004, 129; in 2005, only 57 guns 
had been recovered in crimes since that time.
    Mr. Delahunt. I have to tell you what I also find rather 
shocking is that given the presence that was obviously 
exhibited at this particular gun show, that there were some 47 
that made an effort to or went ahead and actually utilized a 
false address. I don't want to misstate that. That shows a 
level of arrogance, if you will, that doesn't reflect on the--
how shall I say it--on the mental prowess of those that would 
be purchasing these guns illegally. That to me is amazing. 
Maybe we have a higher quality of criminals in the Boston area, 
but, boy, how could you be doing that, going in with a false 
address? From the testimony, obviously, it was a massive police 
presence there.
    Mr. Bouchard. Sir, the 47 that did this, they did it 
because they knew this worked in the past. Many of these same 
people had bought other guns that turned up in crimes. So the 
word got around on the street that you could buy a gun, and 
they couldn't trace it back to you. They are actually pretty 
smart, and they figured that out. That's why we said it's a 
problem that we have to figure out. We're seeing a lot of the 
guns that are bought, go to the address where the person said 
they lived, there's nobody that lived there.
    Mr. Delahunt. If the Chair would indulge me.
    Mr. Coble. The Chairman recognizes the gentleman for 
another minute.
    Mr. Delahunt. It would seem that the rub here at least 
partially is the need, and I would concur with the need, to 
check these residences.
    You, Chief, indicated that there was a consensus that 20 
minutes was sufficient to verify residence. From where I used 
to sit, 20 minutes is not a lot of time to dispatch a cruiser 
to go check a residence. I don't know if you can get it done, 
particularly you said there was in excess of 100 that you 
really couldn't verify. Was that because of your self-imposed 
limit of 20 minutes?
    Mr. McCoy. Yes, absolutely.
    Mr. Delahunt. That makes me real nervous. There has got to 
be a way. I don't know if the ATF or State and local police 
have sat down and attempted to work a protocol with the gun 
show owners to determine whether there is a common-sense 
approach, some sort of pre-approval process so that law-abiding 
citizens don't have their second amendment rights infringed; 
just to make it expeditious so if you intend to go to a gun 
show and may purchase a firearm, you can go in, get it done, 
and without waiting around and going through a check process 
that I believe is essential. Otherwise, we're going to end up 
with AK-47s in the hands of gangsters and gang leaders that are 
going to do damage in the communities. Has that effort been 
made, or is it feasible, or am I indulging in some wishful 
thinking?
    Mr. Bouchard. On behalf of ATF, I can say we can only live 
within the letter of the law, and basically we are not involved 
in an approval process to buy a firearm. We may only have to 
respond after. We work closely with the gun show owners, and I 
did meet with gun show promoters and their board of directors 
earlier this month to try and come to some agreement. They 
don't want these guns to hit the street in the wrong hands 
either. We all share the same goal. So we are working closely 
with them to do a better job.
    But in most parts of the country the residence issue is not 
a problem. The word seems to have hit the street in this 
particular area that that was a way of getting around, much 
like obliterating the serial number on the gun, that's your way 
of not having that gun come back to you.
    Mr. Delahunt. I would hope in terms of the Richmond area, 
given that violent crime rate there, that a protocol, a 
memorandum of understanding could be worked out with the gun 
show owners in an effort to address the needs and the rights of 
law-abiding citizens, and at the same time ensuring that a 
residency check is verified so that it doesn't--these firearms 
don't end up in the hands of those who will use them for 
criminal purposes.
    Mr. Coble. The gentleman's time has expired. Thank you, Mr. 
Delahunt.
    The gentleman from Texas Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I am most appreciative of the work of law enforcement, and 
as a previous prosecutor, like my friend from Massachusetts, 
who I don't know if I got to answer your question about do you 
just indulge in wishful thinking, but I'll let that go.
    Anyway, with regard to your testimony, Mr. Bouchard, you'd 
indicated that the Attorney General has reported that violent 
crime is at a 30-year low. Is that by percentage of population, 
or is that by actual number of violent crime incidents?
    Mr. Bouchard. It's the overall violent crime rates that are 
reported through the FBI.
    Mr. Gohmert. Crime rate?
    Mr. Bouchard. By the uniform crime reports, yes, sir.
    Mr. Gohmert. Not by numbers, but by crime rates. That's a 
percentage of crime to population; is that correct?
    Mr. Bouchard. I believe so, yes, sir.
    Mr. Gohmert. With regard to this letter that has been 
referenced and you had indicated won't be used again, you'd 
indicated that it was only used when the ATF had probable 
cause. Who made the probable cause determination?
    Mr. Bouchard. One of the agents or officers. If they saw 
and had reason to believe a straw purchase had occurred, and I 
can give you some circumstances of that, they had probable 
cause to both arrest that person on the spot and seize that 
gun. What they chose is not to do it on the roadside or in a 
parking lot; that they would seize the gun, tell the person, 
here's why we are seizing your gun. You could face arrest. We 
are asking you to appear at our office. If you can explain 
this, we are going to give you that opportunity to come in and 
explain it.
    What they should have done is given them a receipt and a 
business card instead of this letter, because this letter 
serves no purpose. It's basically telling you when you should 
come into our office to talk; you're not obligated to. If you 
don't show up, there is not a darn thing we can do unless we're 
going to arrest you for the crime for which we seized your gun. 
So that letter is meaningless. I don't know why it was used, 
and, again, it stopped after the sixth show, and I can assure 
you it won't be used anymore.
    Mr. Gohmert. So basically this was a probable cause arrest 
of the gun.
    Mr. Bouchard. It was a probable cause stop. Seizure of the 
gun. Of those 50 guns that we seized, 15 people came in and 
said, I can justify I can legitimately have this gun, and we 
gave that gun back, in many cases, the next day or Monday.
    Mr. Gohmert. Then I am curious. I guess I'm curious what 
caused somebody to believe that it was a straw purchase, and 
then how was that overborne by those 15 people coming in and 
showing otherwise?
    Mr. Bouchard. I can give you a quick example. Three people 
come into a show. They went up to a gun dealer. Two men are 
looking at guns, picking out guns. A female is standing behind. 
The two men walk away. The woman goes up, they give hand 
signals and eye signals to the lady, she then picks up the gun, 
knows nothing about the gun. She later buys it after they give 
her a nod. They go back outside. They get in the car together 
and leave.
    The officers stopped her, asked her if she ever knew how to 
shoot this gun or ever used this kind of gun, she said no. The 
two other men in the car also had guns with them, one of whom 
had a criminal record. We took the gun from her, thinking it 
was for the other people, because the circumstances showed--led 
us to believe she was buying it for these other people.
    She came in that Monday. She justified, no, I really am 
buying this gun. I know they had guns with them, one has a 
record, but I'm really going to buy this for myself. These guys 
are going to teach me how to shoot it.
    We couldn't stop that sale, so we gave the gun back. 
Instead of having this discussion in the middle of a gun show 
or in a parking lot, this is the action we took.
    Mr. Gohmert. Is information contained in an application or 
document for purchase of a gun, is that considered 
confidential?
    Mr. Bouchard. No, sir.
    Mr. Gohmert. So that's open to public disclosure. Somebody 
can fill out here's where I reside, you can take that form and 
wave it around. We've got the residence. Public information. I 
mean, you can do that?
    Mr. Bouchard. I'll just discuss the ATF form 4473 and ask 
my counterparts to discuss the Virginia form. The 4473, when 
you buy a gun and purchase a gun, you fill out the form and 
sign it. It stays with the gun dealer. It's his document that 
records where that firearm went. It stays with that gun dealer 
until if he goes out of business, he then submits that as part 
of his out-of-business records to ATF. It's not available to 
the media; however, if we arrest someone, we do take that form 
because it becomes part of evidence if they falsify the form, 
and it becomes part of our case. The information, it does have 
the Social Security and your driver's license number and all 
that. So to the extent it's not secure information, it's not 
readily available to the public either.
    Mr. Gohmert. How do you all treat that information? If I 
could be indulged.
    Mr. Coble. The gentleman is recognized for an additional 
minute.
    Mr. Middleton. Sir, the forms that are used in Virginia are 
created by the Virginia State Police. To the best of my 
knowledge, those forms are managed in the same way as described 
for the Federal forms by the gun dealers. None of those come to 
the local police, I can assure you of that.
    Mr. Gohmert. Within law enforcement, I don't have a problem 
of that information being transferred. That's one of the 
problems we've had is that we hadn't communicated very well 
from Federal to State and local, and even among Federal, worst 
of all. But what I get to, is it appropriate for an officer 
doing a residence check to knock on a neighbor's door and say, 
``your neighbor is buying a gun, and I need to know if they 
actually live there?'' Wouldn't it be more appropriate to say, 
``we're doing a background check and wondered if these 
people,'' without saying they are buying a gun or any other 
information that may have been gleaned.
    Mr. Bouchard. That would be the ideal way of doing things, 
and that's how we did do it in the beginning. The problem is 
when we went to some of the residences, we just asked, does 
Mike Bouchard live here? I may have lived there, but the person 
there may be worried that my name is not on the lease, and they 
may be evicted because they have people who aren't on their 
lease living there. That was giving us what we call false 
positives. They say no, he doesn't live here. We would then 
stop that sale of the gun. Mike Bouchard would say, really, 
here's my gas bill, I live there; she didn't want to say that 
because she didn't want to get evicted. So we then had to 
practice telling people this is why we're here. You have no 
other concerns; we're not looking to do anything else. If no 
one was home at that address, they would go to a neighbor and 
ask, does this person live there? And we had the same response: 
``Why are you asking?'' So we made it a standard practice just 
to tell them they're looking to buy a firearm, and we're trying 
to verify the residence.
    Mr. Gohmert. I know if you came to my neighbor, he would 
give a straightforward, honest answer because he happens to be 
a Federal ATF agent.
    Mr. Coble. Gentlemen, we're going to have another round 
here because I think this issue is significant enough. We've 
been joined by the gentleman from California Mr. Lungren. Good 
to have you with us.
    Mr. Bouchard, you indicated none of the suspects, for want 
of a better word, were Mirandized and therefore did not have to 
appear at the office. Did I understand you correctly?
    Mr. Bouchard. If they chose not to appear, they didn't have 
to.
    Mr. Coble. If they did, in fact, show up, did they have a 
right to counsel?
    Mr. Bouchard. If they chose to bring counsel. But it was 
not going to be arrest or a custodial situation.
    Mr. Coble. If they showed up without counsel, would they be 
advised that they can have counsel?
    Mr. Bouchard. Probably not, because it was not a custodial 
situation, sir.
    Mr. Coble. You may have answered this to the gentleman from 
Texas, Mr. Bouchard. What disposition did the ATF do with the 
completed residence checklist?
    Mr. Bouchard. If the sale was legitimate, and we verified 
the address, or for those 101 that we couldn't verify, they 
were destroyed. There was no reason to keep those records. The 
only ones we kept were the 47 that gave bad addresses for 
potential future criminal cases.
    Mr. Coble. This may have already been addressed, but let me 
try if it has not been. How many individuals received the 
letter, and how many individuals had their firearms seized as a 
result?
    Mr. Bouchard. The first part of the question, I tried to 
verify how many people had been given a letter, and we could 
not verify that. I know 50 people had guns seized from them; 15 
were later returned.
    Mr. Coble. Fifteen of the fifty?
    Mr. Bouchard. Of the remaining, we recommended 25 people 
for prosecution. So it was, in essence, 10 other guns that may 
still be there that people abandoned or they chose I'm not 
going to push this, ``I'm not going back to talk about it.''
    Mr. Coble. Mr. Bouchard, define a letter of determination. 
Would that be applicable to what we're discussing today?
    Mr. Bouchard. I'm not sure what a letter of determination 
means, sir.
    Mr. Coble. One of my constituents who's a gun enthusiast 
asked me to inquire about a letter of determination. We can 
talk about that later. You're not familiar with that term?
    Mr. Bouchard. Not that term. I know we use that in a 
regulatory sense, but I can get an answer.
    Mr. Coble. Colonel Middleton, you indicated in your 
testimony that your office made inquiries to the ATF agents 
with regard to the legality of the residency checks, and that 
you were told that the legality of these checks was being 
checked out by ATF attorneys. Did the ATF, in fact, provide 
your office with an answer with regard to the legality of these 
checks, A, and if so, when and what was the legal basis?
    Mr. Middleton. No, sir, I have no record that they provided 
us with any response that we got. We acted on the assumption 
that they had cleared all of this and were working with their 
legal authorities on it.
    Mr. Coble. Major McCoy, we are aware that you conduct 
residency checks for convicted sex offender registrants. 
Outside of this function and the gun show operations in 
question, does your agency conduct residency checks for any 
other purpose?
    Mr. McCoy. Not that I am aware of, but if it's required to 
further any type of criminal investigation, it's an acceptable 
practice to obtain some information that might be used in not 
even a firearm-type offense.
    Mr. Coble. The reason I asked, I am told that on election 
day it was discovered that 16 percent--hypothetical. Well, no 
need to get into that. I think you have already answered the 
other one.
    Did your agency, Major McCoy, receive any complaints 
concerning these gun shows operations under discussion today?
    Mr. McCoy. Yes, sir. Since the gun shows I have responded 
via e-mail to numerous people throughout the country with 
questions that they have regarding the Richmond Police 
Department's involvement in this issue, and we are a pretty 
open department, so it is important that we respond back to 
everybody who has an inquiry about what the Richmond Police 
Department does. So we've e-mailed numerous people. Last night 
I had to respond to a gentleman in Dallas, Texas. He had a 
question about he had heard there was up to 400 or 500 officers 
involved, and I wrote a lengthy response back, and I got a nice 
response from him. So there's been inquiries, and we have been 
able to respond to those the best we can.
    Mr. Coble. Let me get one more question before the red 
light comes on. In your testimony you indicated ATF suggested 
you only perform residency checks within an 8-mile radius 
around Richmond, a suggestion that raised concerns for Henrico 
officials. It was decided instead that the check should be 
performed on all residents of Henrico County. What was the 
reason given, if you know, for having suggested the 8-mile 
radius, and what were your concerns about the 8-mile radius?
    Mr. Middleton. The reason for the 8-mile radius, I'm 
certain, dealt with the issue of the amount of time it was 
going to take to conduct the checks; however, we felt like in 
fairness we needed to apply it across the county in total, not 
have specific areas that are sorted out. And from our 
perspective, anyone in Henrico County could have come to the 
gun show and made application to purchase a firearm.
    And we felt like it was appropriate to apply those checks 
to every resident of the county. This was discussed. ATF 
concurred with that. The City of Richmond did, and that is how 
we managed them.
    Mr. Coble. Very well. My time is expired. Let me recognize 
the gentleman from California, and then we'll start on our 
second round.
    Gentleman from California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman, and thank 
you for being here. I am sorry, as we all do, we have other 
meetings that are going on at the very same time. And so we 
only get a chance to spend partial time here.
    Major McCoy, I have got a basic question here, and that is, 
the program in Richmond, the EXILE program was known all over 
the country.
    Mr. McCoy. Yes, sir.
    Mr. Lungren. We knew about it in California. It appeared to 
be a program similar to what we tried to do in California which 
was to go after those who are known felons, go after those who 
were not entitled to have weapons, try and concentrate on 
those, as opposed to going after law-abiding citizens who 
happen to own guns, who happen to exercise their right under 
the Constitution for self protection, for hunting for so forth. 
And yet, what we have heard in our testimony here, 3 weeks ago?
    Mr. Coble. Two weeks ago, I think. I guess it was 3 weeks 
ago.
    Mr. Lungren. It was a little disturbing. It sounded like 
heavy-handed operations by law enforcement. And I am sorry I 
wasn't here to hear your responses to it before.
    How do I tell people who are law-abiding citizens, who 
exercise their constitutional rights and protections to own 
guns, that a program that appeared to be the model for the rest 
of the country, that didn't go after law-abiding citizens, at 
least in the eyes of some, has become distorted such that it 
puts people at jeopardy in the sense that even psychologically 
they fear that they are going to be arrested for just 
exercising their rights?
    Mr. McCoy. Yes, I think that is a very important question. 
And we ask ourselves and challenge ourselves every single day.
    EXILE is another initiative that is designed not to disturb 
the rightful ownership of any firearm but to really attack 
those that use it in an illegal manner. As I have stated 
earlier, we are plagued with violent crime in the City of 
Richmond. This initiative, the gun show initiative, followed 
the same philosophy, and this has received a lot of support 
from all sides of gun-ownership groups, that if you have laws, 
you need to enforce the laws that currently exist. EXILE was 
currently predicated on that, and so was this. And the gun 
checks were kind of a sum, or the residency checks were kind of 
a sum of that specific ordinance that made it illegal to 
falsely file information on that form. So the philosophy of 
EXILE remained the same.
    And in Richmond, this is just a part of a practice; we 
stole Boston's youth program, which is highly successful; 
Indianapolis' gun reduction, and Milwaukee ceasefire, the 
elements we bring together and continually build up our efforts 
to reduce firearms.
    Mr. Lungren. Help me with this, and Mr. Bouchard, if you 
can, as well, and that is the issue of probable cause. If in 
fact my numbers are correct, and correct me if they are wrong, 
there were 206 stops total, 50 weapons confiscated, 25 charges 
brought with 16 convictions. Is that correct?
    Mr. Bouchard. I don't know about the 206 stops. I can't 
attest to that. But the 25 people were recommended for 
prosecution and 50 guns seized are correct.
    Mr. Lungren. Well, 50 weapons seized, are those 50 from the 
25, or are there weapons seized from those who were not charged 
ultimately?
    Mr. Bouchard. The 25 people who were recommended for 
prosecution, their guns are part of the 50.
    Mr. Lungren. I know they are part of the 50. But are there 
also weapons that were seized that were not part of the 25 
charges, in other words, people who turned out to be okay?
    Mr. Bouchard. Fifteen were returned of the 50. People came 
in the next day and verified and could justify that they lived 
where they were.
    Mr. Lungren. Here is what I need you to help me with: When 
I look at the EXILE program, what we did when I was Attorney 
General of California, I had a violence suppression unit that 
we developed, very similar to the same program, but we went 
after guys who were known felons. We did checks. They are on 
parole, probation et cetera, you know, you don't need a warrant 
to do that. We put manpower against those. That is a targeted 
audience.
    And yet this varies from that in that you are going to gun 
shows, and then you are following up, and you got a number of 
convictions, and that is good. But what does it say about those 
people who feel they were kind of jammed by this? They follow 
the law, they get residency checks. They did what they are 
supposed to do. Does it ever enter into the thought that those 
people might feel that--I will use the word oppressed--those 
people might feel that you are sending a message to them that, 
even under Virginia laws, you can buy weapons as long as you 
follow the rules; here they did that, and they feel that they 
are somehow harassed. You confiscate the weapon. They come back 
the next day. They get it that is good. But if I had a legal 
right to have a weapon and you confiscate my weapon and I have 
to go and prove that I am a good guy even though I followed the 
rules, isn't that a little bit heavy-handed? Can you understand 
how people feel?
    Mr. Bouchard. Certainly I understand that. And we don't 
want that to happen. We try to avoid that at any cost.
    The first part of your question, we do the other part of 
proactive targeting the bad guys. This gun show is just one 
small part. We are trying to go through the source of firearms 
that are turning up on the street. And we found they are at the 
gun shows.
    I gave an earlier example to the Congressman from Texas. I 
gave him a very specific example of someone that we did take 
her gun. I can share it again with you, sir, if you like. This 
person even said, yeah, I understand why you did it, because of 
the circumstances. Two other men picked out the guns. She went 
up and paid for it. She admitted she had never handled a gun 
before, hadn't shot one before. She came in and got her gun 
back. And when we explained all this to her, she understood 
where we were coming from.
    There were thousands of people that show up at each of 
those shows. In the August shows alone, we approached only 31 
people, 31 of these people that were there and stopped blatant 
straw purchases of 21 sales. So the numbers that you have been 
hearing from other people are inaccurate. And the number of 
officers is 400; we have 52 people working at those gun shows, 
including the people in the field doing residency checks.
    Mr. Coble. One more.
    Mr. Lungren. Is this 206 stops out of--is that out of 
kilter with what you know? I mean, that is the figure we have.
    Mr. Bouchard. That may be reasonable over the course of the 
eight shows, 206 stops. Before, the May and August shows, they 
were doing a reactive type of thing. They would see a straw 
purchase take place. They would let them leave the parking lot. 
Then they would stop them. We saw that wasn't the best way of 
doing it because crime guns were still turning up on the 
street. We said, let's try and prevent it before they happen, 
and if we see it occur on the floor of the gun show, let's try 
to educate the people: If you do go through with this sale, 
this could possibly be a violation of the law.
    Mr. Coble. I thank the gentleman.
    And for the benefit of the suspicious people in the 
audience, Mr. Lungren and I did not compare notes. I used the 
words heavy-handed as well, and you used identical words, but 
we did not compare notes.
    Mr. Lungren. It is not just a North Carolinian word or 
expression.
    Mr. Coble. Reclaiming my time. Folks, we will now start a 
second session.
    The distinguished gentleman from Virginia, the Ranking 
Member, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, Virginia has a limit of one gun a month. And 
I ask Colonel Middleton and Mr. McCoy, does that apply to gun 
show purchases?
    Mr. McCoy. It is applicable to handgun purchases.
    Mr. Scott. At gun shows?
    Mr. Middleton. Handgun purchases. Handgun purchases only.
    Mr. Scott. At gun shows, and everywhere else?
    Mr. McCoy. Yes.
    Mr. Scott. Do you know if that includes the non-FFL 
purchaser? Do they have to record the fact that they sold a 
firearm if they are not a firearm stealer?
    Mr. McCoy. No, they don't. I don't believe they do.
    Mr. Scott. So that kind of slips under the radar screen, 
and so you can end up buying more than one gun a month at a gun 
show if you stop at the right tables?
    Mr. McCoy. That would be correct.
    Mr. Scott. Okay. Well, that is the only question I had, Mr. 
Chairman. And I want to thank the witnesses for testifying. I 
think we kind of agreed that things didn't go the way they 
should have in Richmond, but they will be better next time.
    Mr. Coble. I feel good about that as a result of this 
hearing as well. The distinguished gentleman from 
Massachusetts, Mr. Delahunt.
    Mr. Delahunt. I have had most of my questions answered. I 
just want to compliment our witnesses. I want to relate my own 
experience for the record with the ATF. It is an outstanding 
service. You need more personnel.
    I think it was you, Chief, that alluded to the Boston 
program. The involvement of the ATF was absolutely critical in 
terms of reducing the homicide rate and reducing the incidents 
of violence.
    So good luck to the two of you in terms of a real 
challenge.
    One more final observation. It is refreshing to hear people 
take responsibility when things aren't going well.
    Mr. Bouchard. Thank you, sir, we appreciate your support.
    Mr. Coble. I thank the gentleman from Massachusetts.
    The distinguished gentleman from Texas.
    Mr. Gohmert. I have no questions.
    Mr. Coble. The distinguished gentleman from California.
    Mr. Bouchard, let me wrap up here then. Did the ATF direct 
law enforcement officers to approach potential firearm 
purchasers and dissuade them from purchasing a weapon? Is that 
known to you to have happened?
    Mr. Bouchard. Only if there was reasonable cause to believe 
an illegal firearms sale was to take place.
    Mr. Coble. Colonel Middleton and Major, let me just, this 
is seeking your opinion. Do you think it is appropriate to 
inform someone that his or her neighbor is purchasing a 
firearm? Do you think that is appropriate? As law enforcement 
people?
    Mr. McCoy. I think, as a last resort, to further an 
investigation, it would be appropriate if it is applicable to 
the specific statute that is a needed element to that crime.
    Mr. Coble. Okay.
    Mr. Bouchard, you expressed a desire to be heard on the 
racial profiling question. And I don't want you to shut you off 
on that.
    Why don't you address that at this time if you want to?
    Mr. Bouchard. Thank you, sir, and I will be very brief on 
that. At these gun shows as well as anywhere else in the 
country, race and gender has nothing to do with how we pursue 
somebody. If they are violating the law, then they are treated 
equally.
    In this case, some people made allegations that we were 
only going to certain neighborhoods in Richmond or the 
surrounding areas. We purposely stayed away from that, and it 
would have been much easier for us to go after individuals that 
we thought were involved in crimes. But we wanted to make sure 
that we weren't segregating any portions of the population or 
any parts of the city or Henrico County. So, therefore, we took 
it upon ourselves to go that extra step, put the extra manpower 
out in the field to go do these checks.
    This cost the county, the city, a lot of money to do. But 
we were committed to ensure we weren't going against any 
individuals, that everybody was going to be treated the same. 
All of the same--anyone who bought a gun that lived in those 
areas was treated exactly the same. And that was only 8 percent 
of the total gun sales that took place.
    Mr. Coble. Well, I am going to give you a chance to clear 
that, to clear the air on that issue.
    Let me put a final question to you, Mr. Bouchard, and as 
Mr. Scott said earlier, I think we are applying hindsight now, 
and hindsight is inevitably 20/20. It is always easy to look 
back and say, well, we should have done this or we should have 
done that. It appears some mistakes were made, but hopefully, 
we are getting there. And if mistakes were, in fact--did, in 
fact, occur, hopefully they won't be repeated. But let me ask 
you this, Mr. Bouchard. Some of the tactics, for want of a 
better way of saying it, were used in these operations. I think 
you said that the letter, that was really, that had no muscle 
in its arm, meaningless letter, that would not be repeated 
again.
    Mr. Bouchard. Correct. And I have met with all of our 
special agents at length and went over what is acceptable and 
not and that that type of thing won't be done.
    Mr. Coble. And future documents are created at the field 
office level that carry the same sort of legal authority that 
we have seen today. I assume that you all will have that 
thoroughly reviewed at the headquarters level, will you not?
    Mr. Bouchard. Well, there are thousands of letters that go 
out of field offices on a regular basis. So that would not be 
something that we could do, to have all of them reviewed in 
headquarters. And the situations where these arrests take 
place, it would be much easier to go to the U.S. Attorney's 
Office and get what we call a target letter that we give to 
individuals that we want you to come in. That is probably the 
most appropriate way of handling those situations.
    We queried all of our field divisions. No one has ever used 
a letter like this before. So it is not a common practice. It 
was a rare isolated incident.
    Mr. Coble. It won't be repeated.
    Dave, we are just finishing up, but the distinguished 
gentleman from Ohio, if you want to be heard, I will recognize 
you.
    Mr. Chabot. I will be very brief, Mr. Chairman. I 
appreciate you accommodating me. I want to thank the witnesses 
for being here, and I apologize because we had a conflict, and 
I wasn't able to be here. And I will review your testimony.
    First of all, let me preface my remarks by saying I did 
have an opportunity to hear much of the testimony last time, 
and whereas I do think it's appropriate that we make every 
effort to pursue those that are actually purchasing weapons on 
behalf of another person who is under disability and should not 
have access to that weapon, I think it is appropriate to do 
that.
    The testimony that we heard at the previous hearing was 
quite disturbing, and I think it is appropriate for this 
Committee to pursue this matter and to make sure that we are 
apprised of all the facts so that if there were any indications 
that people were overstepping their bounds--and I think, from 
the testimony that we heard, there was certainly evidence of 
that--that we make every effort to remedy that situation. 
Because a person's right to have a firearm in this country, 
unless he or she is under some disability because they have 
committed a crime and therefore shouldn't have weapons, people 
should have the right to have a firearm if they choose to do 
so.
    And as I say, some of the testimony was quite disturbing 
from the last time. And I know a lot of the questions that we 
have already been asked. So let me ask this one, if I could.
    How often does the ATF perform residency checks? And in 
what cities and under what circumstances are the residency 
checks conducted? And why does the ATF conduct residency 
checks?
    Mr. Bouchard. In most places, we don't conduct residence 
checks because it is not a common problem that we find when 
guns are recovered.
    However, in Richmond, we found that it was a common 
pattern. In fact, 16 percent of the addresses that were given 
were bogus addresses.
    As I explained earlier, I think the criminals caught on 
that this was a good way--and I liken it to obliterating the 
serial number on a firearm. If you do that or you give a bad 
address, and the gun is used in a crime and traced, it can't 
come back to you.
    So the word had gotten out on the street, and the criminals 
were using the bad addresses or using someone else with another 
address to straw purchase it from them. So we had to tailor our 
approach, because we saw that was a significant problem in the 
area.
    It is not a common problem across the country, and I hope 
it doesn't become one. Most people just come in and buy their 
guns or just get a straw purchaser to do it. So we don't work a 
lot of gun shows in this country, 2 percent of the total that 
are actually held are worked by ATF. So it is a rare occurrence 
when we work a gun show. It is even more of a rare incidence 
when we do residence checks.
    Mr. Chabot. Thank you. How much was the total budget for 
the operation, and what did all the agencies spend for this 
particular gun show that was at issue here?
    Mr. Bouchard. I would have to get you the exact numbers. I 
don't have them. But I know there were only eight ATF agents 
that worked the August show each day.
    Mr. Chabot. Did you say eight?
    Mr. Bouchard. Yes, sir.
    Mr. Chabot. What about numbers of other law enforcement 
agencies?
    Mr. Bouchard. I think the total number of all law 
enforcement was 52 each day in August.
    Mr. Chabot. Including the ATF or in addition to?
    Mr. Bouchard. I have the exact numbers I can get you. It 
was right around 50; nowhere near the 400. I don't know where 
those numbers came from.
    Mr. Chabot. Mr. Chairman, if I could ask that we have those 
numbers.
    Mr. Coble. Sure. The record will be open.
    Mr. Chabot. Because, again, there are an awful lot of real 
crimes and victims of crimes which occur. We want to make sure 
that we are focusing on those incidences where we can really 
have the biggest impact that is going to provide for the most 
security for the most people in this country.
    And, again, I want to make clear that if--there was an 
article that appeared in the Cincinnati Enquirer, my hometown 
newspaper, relatively recently where they were showing that 
there were a number of individuals who had purchased weapons 
for others. And if there are people that are doing that, we 
ought to go after them very strenuously, and I think that is 
appropriate.
    However, if there are folks that are legitimate folks, that 
are just exercising their constitutional rights by deciding 
that they would like to purchase a weapon or might want to 
consider it and other people who are exercising their 
constitutional rights by offering their firearms for sale, we 
ought not to do anything that is going to infringe upon their 
rights. Because those second amendment rights are just as 
important as the first and the fifth and all the other 
constitutional rights that we enjoy in this country.
    Mr. Chairman, I thank you for letting me get those 
questions.
    Mr. Coble. Thank you, gentlemen. I thank you all, not just 
the witnesses but those in the audience as well. I know our 
Virginia folks want to beat this traffic.
    Mr. Scott. Too late for that.
    Mr. Coble. Too late for that, Mr. Scott said. If my belated 
arrival inconvenienced you all, hold me harmless and blame the 
airlines. It is not my fault.
    I want to thank you all for your testimony. We very much 
appreciate your contribution. In order to ensure a full record 
and adequate consideration of this important issue, the record 
will be left open for additional submissions of questions for 7 
days.
    Also, written questions that a Member of the Subcommittee 
wants to submit to either of you should also be submitted 
within the 7-day period.
    This concludes the oversight hearing of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives, Part 2: Gun Show 
Enforcement.
    Thank you, again, gentleman, for your cooperation and your 
attendance. And the Subcommittee stands adjourned.
    [Whereupon, at 4 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Letter from the Bureau of Alcohol, Tobacco, Firearms, and Explosives 
         (BATFE) regarding possible Title 18 U.S.C. violations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         Richmond Gun Show list

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Memorandum to Lieutenant Colonel Robert B. Northern from Captain Robert 
       G. Kemmler, regarding Gun Show Activity on August 22, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Residence Check Sheet used by the Bureau of Alcohol, Tobacco, Firearms, 
                         and Explosives (BATFE)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           Affidavit from Randy Clark, Boutetourt County, VA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Affidavit from Warren Bruce Jones, Henrico County, VA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Affidavit from Ikaya C. Parker, Chesterfield County, VA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Post-hearing questions to Annette Gelles, Owner, Showmasters Gun Shows, 
  from the Honorable Sheila Jackson Lee, a Representative in Congress 
                      from the State of Texas \1\
---------------------------------------------------------------------------
    \1\ Response to these questions had not been received by the 
Subcommittee at the time this hearing was printed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman, for holding this second hearing on the 
issues relating ATF enforcement activities at the Richmond gun show 
held in August, 2005. At the last hearing, we heard from witnesses who 
had criticisms of the activities of ATF and other law enforcement 
operations during the show. While noting that gun show enforcement 
activities have generally been conducted well within expected limits 
and in a totally appropriate or commendable manner, relative the 
Richmond area gun show conducted on August 14th and 15th, 2005, the 
witnesses made very serious allegations of abusive practices, including 
allegations of racial profiling, coercive interrogation tactics, 
actions tantamount to arrest without probable cause, failures to 
apprise of rights against self-incrimination, and more. Newspapers 
across the state reported on these allegations following the gun show.
    Today, we will hear from the ATF regarding their response to those 
criticisms and their involvement and perspectives regarding enforcement 
activities at the gun show. We will also hear form representatives of 
Richmond City and Henrico County police regarding their involvement and 
perspectives on the gun show enforcement activities.
    Mr. Chairman, as I stated at the last hearing, we may have 
different views on gun control and what the laws should be for gun 
shows. However, unless and until the current laws are changed, we must 
fully follow the laws now on the books with respect to these issues, in 
spirit as well as action. There is a right way to enforce the law. It 
requires probable cause and at least an intent to commit a crime on the 
part of the target of the enforcement. The allegations suggest at least 
the appearance that the all the gun show activities were not in keeping 
with these standards. I look forward to the testimony of our witnesses 
today to gain further insight into what happened and how we might avoid 
even th appearance of impropriety in enforcement of our nation's gun 
laws. Thank you, Mr. Chairman.

  Response to post-hearing questions from Michael Bouchard, Assistant 
 Director, Field Operations, Bureau of Alcohol, Tobacco, Firearms and 
                           Explosives (BATFE)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
